T VA O I G S e m i a n n u a l R e p o r t   1
      T VA Pow er Gener ation 2011
      (in millions of kilowatt hours)

                   Natural gas           Nonhydro
                and/or oil-fired         renewable
                             5%          resources          VV Coal - 74,592
                                         <1%
                                                     Coal
                                                     52%
    Hydroelectric                                           VV Nuclear - 49,562
             9%

                                                            VV Hydroelectric - 12,706

                                                            VV Natural gas and/or oil-fired - 6,809
         Nuclear
           34%
                                                            VV Nonhydro renewable resources - 8




2   T VA O I G S e m i a n n u a l R e p o r t
        T able of contents
               N avigating                                                                          Risk                             |         T VA O I G



Message from the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

Special Feature  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

Noteworthy Undertakings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15

Executive Overview .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19

Organization .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27

Inspections .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45

Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51

Appendices .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56

Appendix 1 – Index of Reporting Requirements
             Under the Inspector General Act .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57

Appendix 2 – Audit and Inspection Reports Issued  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58

Appendix 3 – Audit and Inspection Reports Issued With Questioned
             and Unsupported Costs and Recommendations for
             Better Use of Funds .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60

Appendix 4 – Audit and Inspection Reports with Corrective Actions Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 62

Appendix 5 – Investigative Referrals and Prosecutive Results .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64

Appendix 6 – Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65

Appendix 7 – Government Contractor Audit Findings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 66

Appendix 8 – Peer Reviews of the TVA OIG .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 67

Glossary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69

Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 70



                                                                                                                       T VA O I G S e m i a n n u a l R e p o r t                                          3
Message from the
	 INSPECTOR GENER AL
 As those of you who read our Semiannual Report (SAR) know, the Office of
 Inspector General (OIG) at the Tennessee Valley Authority (TVA) selects a theme
 for each SAR and this SAR is no different. Our theme for this edition is “Navigating
 Risk.” In many ways, our theme for every SAR could be about risk as this is the
 heart of our work and what drives our audit plan every year. This is the first edition
 of our SAR devoted to the topic of risks, but it will not be our last. Hopefully, you
 will see why.



 In this semiannual period, our                  imposed debt ceiling of                     monitoring plans following the
 audit, inspection, and investigation            $30 billion mandated by                     Kingston ash spill of December
 activities resulted in almost                   Congress in 1979, a major                   2008.
 $16 million in recoveries, fines/               impediment to making needed
 penalties, waste, potential savings,            investments.                             VV Reviews that identified needed
 questioned costs, or funds which                                                            improvements related to
 could be put to better use, as well         VV A follow-up review of                        TVA’s plan for removal of
 as numerous recommendations                    the effectiveness of TVA’s                   polychlorinated biphenyl
 to help TVA become better and                  Information Technology                       equipment, and fossil fire
 recognize areas where additional               organization which showed TVA                protection systems.
 controls may be necessary to                   has not made improvements
 adequately control risks.                      needed and has even declined              VV Investigations that resulted
                                                in some respects.                            in five convictions, six
 Some of the highlights include:                                                             indictments, and a pretrial
                                             VV The conclusion of a series                   diversion for falsification of
 VV An assessment of TVA’s                      of reviews in which we used                  quality control documents,
    financial flexibility, including            an outside expert to assess                  workers’ compensation fraud,
    identification of alternatives for          TVA’s progress and actions                   and contract fraud as a result
    the TVA Board and executives                after the Kingston ash spill.                of the manipulation of injury
    to consider in meeting future               These reviews centered on the                records. In addition, an
    financing needs. TVA is making              stability of dikes and ash ponds             investigation identified issues in
    significant investments to                  at Johnsonville Fossil Plant,                a contractor’s work that resulted
    improve the condition of                    the stability of the gypsum                  in more than $9.6 million in
    existing assets and bringing                stack at Widows Creek Fossil                 avoidable power replacement
    new ones online that will                   Plant, groundwater monitoring                costs related to the Colbert
    comply with environmental                   of the coal combustion                       Fossil Plant Unit 5 precipitator
    regulations. At the same time,              products disposal areas, and                 overhaul.
    TVA is approaching a statutorily            environmental sampling and




4        T VA O I G S e m i a n n u a l R e p o r t
The Tennessee River




As this report is being released,     far flung enterprise require focused     Board, Richard Howorth, who was
three of TVA’s Board members          attention by Board members on            nominated by President Obama on
end their service. Dennis Bottorff,   matters that affect the lives of         March 17, 2011, and was confirmed
current Chairman of the TVA           every resident of the Tennessee          by the United States Senate on
Board, Tom Gilliland, Chairman        Valley. It is quite likely that most     June 30, 2011. We look forward
of the Audit, Risk, and Regulation    of the contributions of each of          to building a healthy working
Committee, and Robert (“Mike”)        these three Board members will           relationship with Director Howorth
Duncan, Chairman of the Customer      go unnoticed by the public. The          in the years to come as we all strive
and External Relations Committee,     diligence, hard work, and sound          to make TVA better.
all rotate off the TVA Board as the   judgment of these three public
112th Congress ends its session.      servants have made TVA better. On
Service on the TVA Board is in        behalf of the Office of the Inspector
theory “part-time.” As any of these   General, I extend my heartfelt             Richard W. Moore
Board members can tell you, this      thanks for a job well done.                Inspector General
is only in theory. The challenges
facing new Board members at TVA       In that vein, we welcome our
are immense. The complexities of a    newest member to the TVA


                                                                   T VA O I G S e m i a n n u a l R e p o r t      5
        T he role of the oig
              N avigating                        Risk   |   T VA O I G




6   T VA O I G S e m i a n n u a l R e p o r t
Special Feature
    T h e ro l e o f th e o i g
         in I d entif y ing Risk at a G ov ernment Agenc y


In this article, we examine the intersection of federal agency responsibility for accurately assessing and dealing with risks to the
agency and the role of the Inspector General (IG) in this important area. When the inevitable “Where was the IG?” comes
after an agency crisis, we should have a good answer. Was the risk that resulted in a crisis on the IG’s radar? If not, why not?
The role of the IG as we discuss here is not to supplant the agency’s responsibility to properly identify and control risks but to
accurately assess the sufficiency of the agency’s risk management program and to identify risks not recognized by the agency
as appropriate. If the agency’s enterprise risk management (ERM) program is comprehensive, the IG can rely with some
confidence on the program in order to allocate scarce OIG resources for focused audits, inspections, and investigations.



Getting it on the Radar:                    must be caught in the risk                   area,” but what they see does not
Developing a Robust Enterprise Risk         management net early.                        support those words, then the
Management Program                                                                       double message results in a culture
In today’s world, how effective a           There are many reasons an ERM                that does not support “raising your
business or government agency is            program might be ineffective,                hand.” Managers who see other
at identifying its risks and taking         but two key common causes                    managers fired or moved because
action to reduce those risks can            are (1) the agency or company’s              they offered a position that
be the difference between success           organizational health or culture             conflicts with upper management
and failure. Managing risk is a             and (2) the design of the ERM                will quickly recognize talk about
challenging endeavor. In the                program. If either of these                  “risk management” as simply
past, many companies focused                components is weak, the chance               that; talk. The key is creating
risk identification on past losses,         of missing serious risks increases           a safe environment where
failures, and incidents. Today,             exponentially.                               differing opinions can be shared
companies and government                                                                 in a mutually respectful way.
agencies are well advised to
                                            The Role of Culture in                       Communicating priorities so
                                            Developing an ERM Program
actively seek out the unknown and                                                        that employees know they have
identify what process deviations            Private sector companies routinely           been heard whether their ideas
are occurring and what negative             pay consultants millions of dollars          are followed or not engenders
workforce behaviors are occurring           to design a “state of the art” ERM           trust in the leadership and a
throughout the organization now             program only to see them fail. The           willingness to “raise your hand”
that could create a significant risk        best designed risk management                again. Recruiting employees
or, more importantly, what small            program is destined to fail if the           at all levels of an organization
deviations when added together              culture of the organization does             is critical for an effective risk
could constitute a significant              not make it safe for employees at            management system. Relying on
risk for the company. Deviations            all levels to raise risks. If employees      only leadership (executives and
from both organization-approved             hear the words, “We want you to              managers) often robs the system
standardized processes and                  raise risks you see in your work             of the observations of those
established workforce behaviors                                                          closest to the risks. A culture in



                                                                           T VA O I G S e m i a n n u a l R e p o r t            7
which employees believe they can                 the organization aspires to have.               and line management. Dedicated
safely have awkward conversations                These behaviors may include                     risk management resources
about policies and practices is                  such things as: give and expect                 are consulted by executive/
fundamental to an effective risk                 mutual respect, communicate                     operational lines for risk advisory
management system. Identifying                   expectations clearly, seek and                  support and recognized as a
risks must become a normal part                  value the opinions of others, and               strategic business driver.
of every employee’s work life. For               be comfortable bringing up issues
the “new normal” to take hold,                   and recommending solutions.                     According to the COSO report,
however, there must be a trust                   Management should be able to                    enterprise risk management
that identified risks will be fairly             depend on employees to take                     enables management to effectively
evaluated without retaliation. Few               responsibility for identifying risks.           deal with uncertainty and
government or corporate leaders,                 As the “new normal” takes hold, risk            associated risk and opportunity,
however, have the expertise to                   identification and reduction will               enhancing the capacity to build
create that environment without                  become part of everyone’s job.                  value.
specialized assistance from
                                                 The Importance of                               Value is maximized when
professionals who can objectively
                                                 the Right Design for                            management sets strategy and
test the culture of an organization              an ERM Program                                  objectives to strike an optimal
and take steps to improve the
                                                 In addition to culture, the appropriate         balance between growth and
culture as required. Therefore,
                                                 design of the risk management                   return goals and related risks,
those organizations that have poor
                                                 program is critical. The Committee              and efficiently and effectively
organizational health are most
                                                 on Sponsoring Organizations (COSO)1             deploys resources in pursuit of the
vulnerable to unforeseen risks.
                                                 defines ERM as:                                 entity’s objectives. Enterprise risk
                                                                                                 management encompasses:
Making a safe environment for
                                                 …a process, effected by an entity’s
employees to raise issues comes
                                                 board of directors, management                  VV Aligning risk appetite
with a corresponding duty
                                                 and other personnel, applied in                    and strategy – Management
of employees to follow clear
                                                 strategy setting and across the                    considers the entity’s risk
behaviors set by the organization.
                                                 enterprise, designed to identify                   appetite in evaluating strategic
In other words, there must                       potential events that may affect                   alternatives, setting related
be a corresponding duty of                       the entity, and manage risks to be                 objectives, and developing
employees to be accountable                      within its risk appetite to provide                mechanisms to manage related
when management creates a safe                   reasonable assurance regarding the                 risks.
environment to proffer differing                 achievement of entity objectives.
opinions. This is more than simply                                                               VV Enhancing risk response
requiring employees to follow                    According to COSO’s framework,                     decisions – Enterprise risk
policies and procedures or to                    a mature ERM program has risk                      management provides the rigor
avoid engaging in unethical or                   management embedded in                             to identify and select among
illegal behavior. The organization               how the organization conducts                      alternative risk responses – risk
should have a list of desired                    business. The value of the program                 avoidance, reduction, sharing,
behaviors that reflect the culture               is clearly understood by executives                and acceptance.

1
    In September 2004, Committee of Sponsoring Organizations of the Treadway Commission issued Enterprise Risk Management - Integrated 	
    Framework. The Executive Summary can be found at http://www.coso.org/documents/COSO_ERM_ExecutiveSummary.pdf.



8          T VA O I G S e m i a n n u a l R e p o r t
VV Reducing operational                            (4) specified and monitored                      companies in that the design
   surprises and losses –                          risk-adjusted performance                        evolved; the culture did not.
   Entities gain enhanced                          metrics. COSO’s Enterprise                       While the components of the
   capability to identify potential                Risk Management Integrated                       ERM improved significantly, the
   events and establish responses,                 Framework suggests that the                      program was not supported by
   reducing surprises and                          chief executive should assess                    a healthy corporate culture. At
   associated costs or losses.                     the organization’s enterprise risk               the time of the Kingston coal
                                                   management capabilities. In one                  ash spill, TVA ranked in the lower
VV Identifying and managing                        approach, the chief executive                    quartile of organizational health
     multiple and cross-                           brings together business unit heads              when benchmarked against other
     enterprise risks – Every                      and key functional staff to discuss              utilities. Among other things,
     enterprise faces a myriad of risks            an initial assessment of enterprise              this meant that confidence in
     affecting different parts of the              risk management capabilities and                 TVA leadership was low and
     organization, and enterprise risk             effectiveness. Whatever its form, an             trust that employee concerns
     management facilitates effective              initial assessment should determine              would be addressed fairly was
     response to the interrelated                  whether there is a need for, and                 poor. TVA’s culture profile was
     impacts, and integrated                       how to proceed with, a broader,                  classic for an organization at risk
     responses to multiple risks.                  more in-depth evaluation.                        due to employee resentment
                                                                                                    and distrust. The likelihood that
VV Seizing opportunities –                         The TVA Experience with                          employees will “raise their hands”
   By considering a full range of                  Risk Management
                                                                                                    and help the agency identify risks
   potential events, management                                                                     is extremely low when there are
                                                   Risk management at TVA before the
   is positioned to identify                                                                        unresolved issues based on poor
                                                   December 2008 Kingston coal ash
   and proactively realize                                                                          communication and a lack of trust
                                                   spill was never the subject of much
   opportunities.                                                                                   throughout the agency. This often
                                                   focus from TVA stakeholders. That
                                                   environmental disaster resulted                  results in deviations from standard
VV Improving deployment of
                                                   in the release of about 5.4 million              processes in favor of “one off”
   capital – Obtaining robust risk
                                                   cubic yards of coal ash spilling onto            solutions that sometimes expose
   information allows management
                                                   adjacent land and into the Emory                 a company to additional risks. As
   to effectively assess overall
                                                   River, more than a billion dollars in            noted in our report on the Kingston
   capital needs and enhance
                                                   clean-up costs, and litigation. After            ash spill,2 attitudes and conditions
   capital allocation
                                                   the spill, both TVA management                   at Kingston emanated from a
                                                   and TVA’s stakeholders have taken                legacy culture which impacted the
A mature program will include:
                                                   a hard look at how well TVA                      way TVA handled coal ash. The
(1) a well-defined risk tolerance;
                                                   manages risks.                                   very real health hazard posed by
(2) risks that are systematically
                                                                                                    coal ash disposal was minimized
identified, assessed, and
                                                   TVA’s experience was probably                    by the culture which exposed TVA
communicated; (3) decisions which
                                                   similar to other government                      to unnecessary and unforeseen
are made with due consideration
                                                   agencies and private sector                      risks. Fortunately, the TVA Board
to risk/return tradeoffs; and
                                                                                                    and TVA’s leadership recognized

2
    Review of the Kingston Ash Spill Root Cause Case Study and Observations About Ash Management, July 23, 2009.




                                                                                     T VA O I G S e m i a n n u a l R e p o r t        9
the importance of improving               Executive Officer (CEO) meets               identified by employees with direct
TVA’s culture after Kingston and          periodically with the Risk Council,         knowledge of operations and risk.
recent surveys indicate a steady          made up of senior executives,               As a result, the number of risks
movement toward a healthy                 to review and discuss emerging              identified has grown substantially.
culture after more than two years         risk issues. Additionally, the TVA          These risks are rolled up into 19 risk
of focused culture work.                  Board of Director’s Audit, Risk, and        areas that are judged significant
                                          Regulation Committee routinely              enough to impact TVA as an
What difference does it make for          reviews the top ranked risks and            enterprise.
TVA’s risk management program             the related mitigation efforts. The
                                                                                      Developing Clarity
that TVA’s organizational health          OIG serves in an advisory capacity          around the Role of the OIG in
is improving? Employees who               by routinely meeting with the               Assessing an Enterprise Risk
believe that management is                Chief Risk Officer to stay abreast of       Management Program
demonstrating respect for their           emerging risk issues.
                                                                                      The scope of responsibility for
opinions and is making it safe
                                                                                      an OIG in risk management for
to offer differing opinions will          Over time, TVA’s ERM program
                                                                                      a government agency does not
volunteer the discretionary effort        has evolved to the point it is
                                                                                      appear to have been the subject of
it often takes to raise a potential       now embedded in how the
                                                                                      much public debate. Agency risks
risk. Employees begin to align            company conducts business
                                                                                      differ significantly based upon the
with the vision and goals of              and has progressed significantly
                                                                                      varied missions of federal agencies
the organization and view risks           since the Kingston spill.
                                                                                      and, correspondingly, the work
no longer as just problems for            Particularly noteworthy is that risk
                                                                                      of IG offices differ based on the
management but risks that could           management discussions occur
                                                                                      specific responsibilities of their
affect their success as individuals.      at the plant level and issues are
Risk identification appears now to
be driven deeper into the agency
and the best information about
                                                                                         T VA V i s i o n
risk seems to be getting the right
                                                                     Sets forth TVA’s long term objectives, consistent with its
analysis. The success of TVA’s                                                      mission and the TVA Act
culture change, therefore, will likely
                                                                                  Annual bud get
have a pronounced effect on the
                                                                     Adopted by Board of Directors, sets forth rates, financing
success of its risk management                                                 and capital plan for the enterprise
program.
                                                                          A n n u a l s b u / b u b u s i n e ss p l a n
                                                                    Establishes how resources will be deployed at the SBU/BU
Currently, TVA has a Chief Risk
                                                                   level in support of TVA’s corporate objectives, including risk
Officer with a staff dedicated to
facilitating discussions about                                           r i s k- i n f o r m e d b u s i n e ss p l a n
risk throughout all organizations                                   Sets out the SBU/BU response to its most significant risks
                                                                     and acts as a platform by which it can align resources to
within TVA. The risks that are                                                        better manage those risks
identified in these discussions are
                                                                      s e m i a n n u a l s b u r i s k ass e ssm e n t
evaluated and they are ranked                                          Establishes context, serves to assist SBU/BU with the
with mitigation plans to reduce                                                        assessment of its risks
the risks as appropriate. The Chief




10      T VA O I G S e m i a n n u a l R e p o r t
                                T VA Risk F r am e w o r k
                                                   Operations                               Financial/
               Strategic                                                                                      Compliance
                                   Assets             People           Technology           Reporting

                                      Asset                                                                    Compliance
                                                   Organizational                             Financial
               Reputation       Performance and                        Cyber Security                         with Laws and
                                                      Health                                  Flexibility
                                  Operations                                                                   Regulations


                Customer           Business           Talent                                                  Environmental
                                                                       IT Infrastructure   Market Exposures
                Relations        Distributions      Management


               Long Range          Capacity
            Planning External    Expansion and         Safety                                  External         Litigation
                Influences       Construction                                                 Reporting



               Long Range                         Internal Processes
             Planning Process                      and Procedures




respective agencies. All IG offices,         of the risk management program.                   September 2008, also found that
however, regularly engage in risk            The OIG identified numerous                       the program needed to be driven
assessments for their respective             weaknesses and recommended                        further down into the organization.
agencies without necessarily                 actions such as enhancing                         Three months later, the Kingston
evaluating the ERM program                   sponsorship of the program by the                 ash spill also demonstrated this
specifically. As we noted above,             Board and executive management,                   same need. The Kingston disaster
two critical components of a robust          establishing a more rigorous                      serves as an example of the
ERM program are organizational               framework for identifying and                     importance of a properly designed
health and the right design for the          monitoring risks and implementing                 ERM program supported by a
program. An examination of both              an enterprise-wide risk                           healthy culture. Our report on
would seem to be a logical part of           management training program.                      Kingston pointed to significant
any OIG’s work.                              In our 2008 review, done with the                 risks that were associated with ash
                                             assistance of an external consultant              management and that were known
As for TVA, the ERM program                  with broad knowledge of risk                      internally as early as 1987, but that
has evolved over the years. In               management practices, we found                    information was not captured in
1999, the OIG recommended                    that TVA had made progress in risk                any risk matrix.
TVA establish an enterprise risk             identification and assessment since
management program and create                2003 and that the commitment                      In addition to the role the OIG
a Chief Risk Officer position. In            to risk management at the top of                  has played in reviewing the ERM
2003, an OIG follow-up review was            the agency was strong. However,                   program, the OIG continues to
conducted to assess the adequacy             our assessment, published in                      play a vital role in helping TVA




                                                                               T VA O I G S e m i a n n u a l R e p o r t         11
                                                                                   VV Cyber Security Risk –
                                                                                      These risks include inadequate/
                                                                                      ineffective controls which
                                                                                      would allow (1) an intentional
                                                                                      or unintentional act that
                                                                                      compromises or destroys TVA’s
                                                                                      ability to perform business
                                                                                      functions, (2) loss of data,
                                                                                      and (3) noncompliance with
                                                                                      federally mandated regulations.
                                                                                      Our work has included in depth
                                                                                      assessments of the effectiveness
                                                                                      of TVA’s Information Technology
                                                                                      organization, security
                                               Kingston Ash Spill Area May 2011       monitoring program, security
                                                                                      posture at plants as well as
                                                                                      application and network
 manage risk. A key role for the               demonstrated the impacts               controls. Results of our work
 OIG is to provide an objective                that result when a catastrophic        factor into TVA’s cyber security
 evaluation to the TVA Board that              risk becomes a reality. To help        risk assessment.
 the major business risks are being            identify weaknesses and lower
 managed appropriately and that                TVA’s exposure, the OIG has         VV Contractor Overbilling
 the risk management and internal              completed a number of audits           Risk – These risks include
 control framework are operating               and inspections including              excessive costs being billed to
 effectively. Like any IG office, risk is      reviews of TVA’s dam safety            TVA by contractors as a result of
 a key component in the planning               program, fire protection at            (1) unsupported, duplicate and
 of our audits and evaluations. The            fossil plants, and TVA’s plan for      ineligible billings, (2) overstated
 OIG addresses risks such as:                  removal of polychlorinated             billing rates, (3) confusing and
                                               biphenyl (PCB) equipment               conflicting contract clauses,
 VV Catastrophic Risks –                       to name a few. Additionally,           and (4) fraud. Over the last
    Catastrophic risks are defined             in keeping with the OIG’s              five years, our compliance and
    as major accidents such as fires           commitment to monitor TVA’s            preaward audits have identified
    and explosions, a nuclear plant            assessment and improvements            more than $270 million in
    (radiological) accident, building          of ash storage facilities, the         questionable costs billed
    or infrastructure failure, or              OIG retained engineering firm          or proposed by contractors.
    other accident that could have             Marshall Miller and Associates,        TVA management uses
    a major impact on TVA. While               Inc. (Marshall Miller), to peer        the results of our contract
    these risks generally have a low           review geotechnical evaluations        compliance and preaward
    probability of occurrence, the             and improvements at selected           audits to (1) recover
    consequences are very high.                sites.                                 overbillings, (2) prevent the
    The Kingston ash spill and the                                                    payment of inflated costs
    Fukushima nuclear event have                                                      in the future, and (3) avoid




12       T VA O I G S e m i a n n u a l R e p o r t
   future wasted expenditures           VV Reputational Risk                        of falsification of safety-related
   by correcting confusing and/            Associated with TVA’s                    nuclear plant documents and
   or conflicting contract terms           Regulator Role over                      substantiated misconduct
   which our audits identify.
                                           Power Distributors –
                                                                                    allegations. Finally, we
                                           Our work identified areas for
                                                                                    proactively conducted fraud risk
VV Operational Efficiency                  improvement in TVA’s oversight
                                                                                    assessments with TVA in various
   and Effectiveness Risk –                of the distributors of TVA power.
                                                                                    program areas. These types of
   TVA’s operational efficiency            In addition, as a result of our
                                                                                    assessments help to identify
   and effectiveness is a key driver       work, TVA has increased its
                                                                                    potential fraud schemes and
   in mitigating risks in all areas        focus on its regulatory role by:
                                                                                    raise fraud awareness.
   of performance including                (1) developing a Distributor
   organizational health. The risk         Compliance group to assess            CONCLUSION
   of programs and operations              distributor compliance with           The work of an IG office adds value
   being inefficient or not effective      the wholesale power contract          to a federal agency in many ways,
   significantly drives up cost,           with TVA and (2) reviewing its        including the routine evaluation
   increases safety concerns,              rate setting process to provide       of the agency’s enterprise risk
   and harms the reputation of             greater transparency, better          management program. Any
   TVA. A primary focus of the             financial review, and increased       credible assessment involves a
   OIG is to continually look for          Board oversight.                      review of both the ERM design
   opportunities to improve on                                                   and the agency’s culture that can
                                        VV Fraud and Misconduct
   efficiency and effectiveness                                                  either support the program or
                                           Risk – Misrepresentations and
   in each and every review                                                      undermine it. An agency should
                                           unethical behavior can have
   conducted. Additionally,                                                      not rely on the OIG to find agency
                                           significant impact across the
   we periodically report on                                                     risks as the primary responsibility
                                           organization. Our investigative
   the progress TVA is making                                                    for risk management resides
                                           work and the OIG EmPowerline
   by conducting benchmark                                                       most appropriately with agency
                                           play a key role in preventing,
   reviews in key strategic areas                                                management. The agency can
                                           detecting, and deterring fraud
   of TVA operations. Recently,                                                  reasonably expect, however, that
                                           and misconduct that can
   our reviews have identified                                                   the OIG will provide accurate
                                           impact such areas as TVA’s
   needed improvements in:                                                       assessments of the agency’s ERM
                                           finances, compliance with laws
   (1) controls around the                                                       program and will bring to the
                                           and regulations, safety, and
   receiving and burning of coal,                                                agency’s attention risks caught
                                           reputation. Our investigations
   (2) the effectiveness of TVA’s                                                by the OIG and not “on the radar”
                                           this year have resulted in more
   transmission line maintenance                                                 of the agency. This collaborative
                                           than $5 million in recoveries,
   program, and (3) organizational                                               approach requires a mutually
                                           savings, fines, and penalties;
   health in various key areas of                                                respectful relationship that
                                           numerous administrative
   performance.                                                                  promotes prevention rather than
                                           actions, including termination
                                                                                 fault finding after the fact. Risk
                                           of employees and contractors;
                                                                                 management may very well be the
                                           and multiple indictments and
                                                                                 single greatest reason for a healthy
                                           prosecutions at the federal
                                                                                 relationship between an agency
                                           and state levels. In addition,
                                                                                 and its OIG.
                                           we have identified instances




                                                                   T VA O I G S e m i a n n u a l R e p o r t       13
N oteworth y un d ertakings
              N avigating                         Risk   |   T VA O I G




14   T VA O I G S e m i a n n u a l R e p o r t
  N OT E W O RT H Y U N D E RTA K I N G S




 Kristin Leach, Heather Kulisek, and Richard Moore
 with award



TVA OIG’s Review of TVA’s                Program, formalized in 1982, meets        of a comprehensive dam safety
Dam Safety Program Wins                  federal guidelines. The Dam Safety        program. Our review found TVA
Council of Inspectors General on         Program consists of modifications to      was taking steps to identify and
Integrity and Efficiency (CIGIE)
                                         ensure the structural integrity and       mitigate its risks; was adhering
Award of Excellence
                                         safe operation of TVA’s 49 dams and       to the Federal Guidelines for Dam
The TVA OIG has been recognized          related structures, instrumentation       Safety, with a few exceptions; and
by CIGIE for its work on a review        to monitor dam performance,               had a comprehensive dam safety
of TVA’s Dam Safety Program. On          periodic inspections, maintenance         program.
October 18, 2011, Heather Kulisek        and repairs, and emergency
and Kristin Leach, auditors in our       preparedness. Additionally, Dam           Additionally, there were several
Inspections group, accepted the          Safety’s scope of responsibility          issues identified in this review that
CIGIE Award of Excellence for their      includes saddle dams, dikes, and          were previously identified in our
work. This review was the result of      impoundments in the TVA system.           Inspections report titled, Review
broad interest by the media, TVA                                                   of Kingston Fossil Plant Ash Spill
stakeholders, and the public at          The objectives of our review              Root Cause Study and Observations
large surrounding the safety and         were to determine if TVA’s Dam            about Ash Management (Kingston
condition of TVA dams after the          Safety Program identified and             Report). TVA management
Kingston ash spill.                      adequately addressed significant          agreed with our findings and
                                         risks; was in compliance with TVA         recommendations and has taken or
TVA’s Dam Safety Organization            policies and procedures, as well as       plans to take corrective actions.
(Dam Safety) is responsible for          applicable laws and regulations;
ensuring that TVA’s Dam Safety           and encompassed all aspects


                                                                   T VA O I G S e m i a n n u a l R e p o r t       15
                                                                                  EMPOWERLINE


                                                                                  case management system with
                                                                                  analytical reporting tools and
                                                                                  allows users to upload supporting
                                                                                  documentation. The switch was
                                                                                  successful, and announcements
                                                                                  in TVA e-publications about the
                                                                                  EmPowerline’s new toll-free phone
                                                                                  number, (855) 882-8585, started
                                                                                  to appear. The EmPowerline Web
                                                                                  site, www.oigempowerline.com,
                                                                                  received a makeover, and two
                                                                                  letters announcing the change
                                                                                  were sent out from Inspector
                                                                                  General Richard Moore to TVA
                                                                                  employees and TVA contractor
                                                                                  employees. The new EmPowerline
                                                                                  posters were placed in TVA
                                                                                  buildings and feature our very
                                                                                  own Legal Counsel Charles Kandt’s
                                                                                  daughter, Anna Marie, who
                                                                                  appears as the scuba diver in the
                                                                                  picture.
 The EmPowerline Gets a                   process, right? Well, normally it is;
 New Look, New Provider,                  but, when that phone number is          Though the rollout went relatively
 and New Number                           also a hotline for reporting fraud,     smoothly, it was not without
 When seven TVA OIG employees             waste, and abuse of the largest         intensive planning, hard work,
 got together earlier this year,          public power provider in the            and attention to detail. We invite
 they might not have known how            country, a simple phone number          you to take a tour of our new
 big of an undertaking they were          change isn’t so simple anymore.         EmPowerline Web page at www.
 embarking upon when it came              On Friday, September 16, 2011, the      oigempowerline.com.
 to changing a phone number.              EmPowerline changed providers
 After all, getting a phone number        and phone numbers. The new
 changed is a common and simple           provider offers a more robust



16      T VA O I G S e m i a n n u a l R e p o r t
  Two TVA OIG employees included in the picture are:
  third from left, TVA OIG Senior Auditor Kyle Cox and to the far
  right, Senior Special Agent Curtis Phillips




Cyber Information                         Policy (EIS&P) – in conjunction with      we foster an environment of
Sharing Conference                        the Federal Bureau of Investigation       cooperation among agencies to
The nation’s critical infrastructure      (FBI), Oak Ridge National Laboratory      protect our nation and its critical
is a fast-growing target for cyber        (ORNL), DHS, and the National             infrastructure. To further this goal,
attacks. The sophistication and           Reconnaissance Office (NRO) –             the OIG, TVA, FBI, and ORNL have
frequency of attacks is ever              hosted an information sharing             formed a cyber working group to
increasing; and, as utilities continue    conference in Chattanooga,                meet monthly and discuss threats
to connect systems to increase            Tennessee on September 13-14,             and cases to benefit the group as
efficiency, risks associated with our     2011. The primary objective of            a whole.
critical infrastructure increase. A       the conference was to establish a
well-orchestrated cyber attack on         partnership between these agencies
critical infrastructure could result      to improve threat-information
in cascading effects across multiple      sharing relevant to TVA and its
sectors. Officials with the U.S.          assets.
Department of Homeland Security
(DHS) recently stated not only is the     By bringing together key
frequency of attacks increasing, but      government organizations, the
intrusions have occurred.                 OIG and TVA have established
                                          partnerships with DHS and FBI
In response to the increasing             field offices capable of providing
threats, TVA OIG and TVA Enterprise       actionable threat information. By
Information Security and                  establishing these partnerships,




                                                                    T VA O I G S e m i a n n u a l R e p o r t        17
         E x ecutive overview
             N avigating                          Risk   |   T VA O I G




18   T VA O I G S e m i a n n u a l R e p o r t
 E X EC U T I V E OV E RV I E W
 Every organization has certain risks; how those risks are managed often divides the best performing organizations from
 the rest. A principal role of the Office of Inspector General is to help TVA manage risks to avoid both poor operational
 performance and potential disaster. It has often been said that TVA is a “big ship” and, therefore, slow to change course. 	It is
 equally true that TVA navigates treacherous waters and, historically, with varying degrees of success. We see TVA managing
 risks better than in previous years due to a more robust risk management program and diligent responses to hazards we 		
 have identified.
 In this semiannual report to Congress, we are focusing on the OIG work which was designed to minimize risks to TVA. As
 stated in the Message from the IG, it could be said that all of the OIG’s work is intended to minimize risk for TVA. In this
 report, however, we identify key audits, inspections, and investigations that specifically showcase how we elevate and make
 visible potential hazards in TVA’s course to success.



AUDITS                                      Financial and Operational Audits              an audit of TVA’s controls over
                                            section begins on page 27 of this             contract documents and found
During this reporting period, the
                                            report.                                       TVA’s Supply Chain was not in
OIG completed 26 audits and
                                                                                          compliance with TVA policies
19 other projects that identified           Contract Audits
                                                                                          regarding the centralized handling
more than $6 million in questioned
                                            To support TVA management in                  of contract documents. The
costs and funds which could be
                                            negotiating procurement actions,              Contract Audits section begins on
put to better use. The OIG also
                                            we completed three preaward                   page 31 of this report.
identified numerous opportunities
                                            audits of cost proposals submitted
for TVA to improve program
                                            by companies proposing to
                                                                                          Information Technology (IT)
operations.
                                            provide (1) a perimeter stabilization
                                                                                          Audits
Financial and Operational Audits            project for a TVA fossil plant,               To ensure TVA’s IT assets are
                                            (2) upgrades to TVA’s hydro plants,           properly secured and appropriate
In order to ensure that TVA has a
                                            and (3) inspection services. Our              controls are in place, the IT
reliable system of financial and
                                            audits identified $4.9 million of             Audits team completed 11 audits
operational controls, Financial and
                                            potential savings opportunities               pertaining to: (1) implementation
Operational Audits completed five
                                            for TVA to negotiate. We also                 of TVA’s new fixed asset system
reviews related to green power
                                            completed two compliance audits               and core network switches;
pricing accreditation, transmission
                                            of contracts with expenditures                (2) a follow-up assessment of TVA’s
line inspection and maintenance,
                                            totaling $11.8 million related                IT organization’s effectiveness;
burning and receipt of coal, cost
                                            to (1) vacuuming services and                 (3) granting physical and logical
recovery for tritium production,
                                            (2) asbestos abatement and                    access to nonnuclear contractors;
and TVA’s financial flexibility,
                                            valve refurbishment services.                 (4) Internet firewall management;
including the history and status
                                            These audits identified potential             and (5) IT general controls for
of TVA’s financing as well as its
                                            overbillings of $1.3 million.                 (a) a proposed application service
alternatives for the future. The
                                            Additionally, we performed                    provider and (b) TVA processes



                                                                           T VA O I G S e m i a n n u a l R e p o r t           19
 for logically and physically              section begins on page 37 of this
 protecting data and other IT assets,      report.
 developing and implementing
 program changes, computer
                                           INVESTIGATIONS
 operations, and configuration             This reporting period was an
 management. The IT Audits section         active one for OIG Investigations.
 begins on page 32 of this report.         Our findings produced results,
                                           including five convictions, six
 Distributor Audits
                                           indictments, and one pretrial
 To ensure compliance with                 diversion. The individuals were
 contract terms between TVA                prosecuted in state and federal
 and distributors of TVA power,            venues, on various charges such as
 the OIG completed five audits             major fraud, workers’ compensation
 of TVA distributors. We looked            fraud, false statements, and theft.
 at classification and metering            Additionally, one administrative
 issues as well as other contract          investigation identified wasted
 requirements, including the use of        funds exceeding $9.6 million on
 electric funds and cash reserves.         a fossil plant project, and other
 We also looked at distributor             investigations garnered restitution,
 internal controls and identified          fines, and fees exceeding $9,000.
 opportunities for better oversight        We opened 190 investigations and
 of distributors by TVA. The               closed 228. The highlights and
 Distributor Audits section begins         results of our investigations can
 on page 34 of this report.                be found starting on page 45 of
                                           this report.
 INSPECTIONS
 In order to ensure TVA programs                      STATISTICAL HIGHLIGHTS
 are efficient, effective, and                                 April 1 - September 30, 2011
 have proper controls in place,
                                            Audit Reports Issued                              26
 Inspections assessed (1) TVA’s
                                            Inspections Completed                             8
 groundwater monitoring at coal
                                            Questioned Costs                                  $1,326,886
 combustion products disposal
                                            Disallowed Costs                                  $655,177
 areas, (2) TVA’s plan for removal of
                                            Funds Recovered                                   $326,352
 PCB containing equipment, and
                                            Funds to be Put to Better Use                     $4,945,032
 (3) the Section 26a permitting
                                            Funds Realized by TVA                             $1,162,132
 process. Additionally, an OIG
                                            Investigations Opened                             190
 contractor, Marshall Miller,
                                            Investigations Closed                             228
 completed a series of peer reviews
 of geotechnical exploration and            Recoveries/Savings/Fines/Penalties                $9,104
 slope stability analyses of selected       Other Monetary Loss                               $9,693,195
 TVA coal combustion products               Criminal Actions                                  12
 storage areas. The Inspections             Administrative Actions (No. of Subjects)          23




20       T VA O I G S e m i a n n u a l R e p o r t
                          Watts Bar Nuclear Plant




T VA O I G S e m i a n n u a l R e p o r t      21
                O rg ani zati o n   T VA O I G


                                                                         Richard W. Moore
                                                                           Inspector General




                                                                          Ben R. Wagner
                                                                       Deputy Inspector General




Investigations                     Audits & Inspections                        Administration
Management Team                    Management Team                             Management Team                                  Legal Team

           John E. (Jack)                     Robert E. Martin                                      Jill M. Matthews
             Brennan                                                                                                                         Charles A. Kandt
                                            Assistant Inspector General                           Assistant Inspector General
          Assistant Inspector                                                                                                                   Legal Counsel
         General, Investigations               Audits & Inspections                                     Administration




         Nancy J. Holloway                     Phyllis R. Bryan                                        Kay T. Myers                      W. David Winstead
         Special Agent in Charge                Director, IT Audits                            Manager, Human Resources                      Deputy Legal Counsel




          Paul B. Houston                     Lisa H. Hammer                                      Stefanie D. Hoglund
                                               Director, Financial
         Special Agent in Charge                                                                     Public Affairs Officer
                                              & Operational Audits




                                           Rick C. Underwood, Jr.
                                                Director (Acting)
                                                Distributor Audits




                                             David P. Wheeler
                                             Director, Contract Audits




                                             Gregory R. Stinson
                                               Director, Inspections




                                             John H. Barrow III
                                                 Project Manager
                                                 Emerging Issues




                                               Louise B. Beck
                                              Audit Quality Manager



22     T VA O I G S e m i a n n u a l R e p o r t
The OIG’s most important                  Nashville-2, Huntsville-4, and
resource is its people. Our team          Mayfield, Kentucky-1.
is made up of experienced
                                          ADMINISTRATION
auditors, investigators, and
administrative staff. The OIG is          The Administration team works
an independent office within TVA          closely with the IG, Deputy IG,
and is headquartered opposite             and Assistant IGs to address the
TVA corporate offices in TVA’s East       day-to-day operations of the
Tower, overlooking downtown               OIG and to develop policies and
                                          procedures designed to drive and           TVA Towers • Knoxville, TN
Knoxville. Inspector General
Richard Moore believes that               enhance productivity in achieving
in order to effectively provide           office goals. Responsibilities
                                                                                  (i.e., costs or value of assets),
oversight to TVA, we must be              include operations for personnel
                                                                                  potential impact, sensitivity
strategic in our placement of OIG         administration, budget and
                                                                                  (including public and/or
employees. As such, the IG has            financial management, purchasing
                                                                                  congressional interest), and
worked to ensure that our office          and contract services, facilities,
                                                                                  the likelihood it will result in
has a presence at or near all major       conferences, communications and
                                                                                  recommendations for cost savings
TVA offices/facilities throughout         IT support.
                                                                                  or process improvements. The
the Tennessee Valley.
                                          AUDITS AND INSPECTIONS                  result of the OIG audits and
The OIG has a major satellite                                                     inspections planning process is a
                                          The Audits and Inspections
office in the Edney Building in                                                   focus on those issues of highest
                                          group performs a wide variety of
Chattanooga, Tennessee, where                                                     impact and risk of fraud, waste, or
                                          engagements designed to promote
the Inspections unit and several                                                  abuse.
                                          positive change and provide
investigators are located. There are      assurance to TVA stakeholders.
                                                                                  The Audits team, based in
also staffed field offices at the Watts   Based upon the results of
                                                                                  Knoxville, generates and oversees
Bar Nuclear Plant in Tennessee;           these engagements, the Audits
                                                                                  comprehensive financial and
and also in Nashville, Tennessee;         and Inspections group makes
                                                                                  performance audits of TVA
Huntsville, Alabama; and Mayfield,        recommendations to enhance the
                                                                                  programs and operations,
Kentucky.                                 effectiveness and efficiency of TVA
                                                                                  providing a landscape view of
                                          programs and operations.
As of September 30, 2011, the                                                     TVA’s overall fiscal and operational
OIG had a total staff of 104. The                                                 health.
                                          The group uses an impact- and
Audits and Inspections units are          risk-based approach to develop
                                                                                  This dynamic team is made up
composed of 55 employees, the             an annual work plan. The plan
                                                                                  of four departments—Contract
Investigations unit includes              considers TVA’s strategic plans,
                                                                                  Audits, Distributor Audits,
31 people, and the Administrative         major management challenges,
                                                                                  Financial/Operational Audits, and
team is comprised of 18 people.           TVA’s enterprise risk management
                                                                                  Information Technology Audits.
                                          process, and other input from
The number of personnel                   TVA management. The planning
located at each staffed office is as                                              VV Contract Audits has lead
                                          model also evaluates each
follows: Knoxville-80, Watts Bar                                                     responsibility for contract
                                          potential engagement from the
Nuclear Plant-1, Chattanooga-16,                                                     compliance and preaward
                                          standpoint of materiality
                                                                                     audits. In addition, this group



                                                                     T VA O I G S e m i a n n u a l R e p o r t        23
     performs reviews of TVA                     assess the results and economy        However, the team can and does
     contracting processes and                   and efficiency of TVA programs.       provide larger scope reviews
     provides claims assistance as                                                     when needed and seeks to
                                              VV IT Audits has lead responsibility
     well as litigation support.                                                       ensure that program objectives
                                                 for audits relating to the security
                                                                                       and operational functions are
VV Distributor Audits has lead                   of TVA’s IT infrastructure,
                                                                                       achieved effectively and efficiently.
   responsibility for contract                   application controls and general
                                                                                       In accordance with the Quality
   compliance reviews of TVA                     controls associated with TVA
                                                                                       Standards for Inspections, the
   distributors. This group assesses             systems. This group also
                                                                                       objectives of the Inspections group
   compliance with the terms of                  performs operational reviews
                                                                                       include providing a source of
   the power contracts between                   of the effectiveness of IT-related
                                                                                       factual and analytical information,
   TVA and its distributors.                     functions.
                                                                                       monitoring compliance, measuring
                                              The Inspections team, based in           performance, assessing the
VV Financial/Operational Audits has
                                              Chattanooga, serves a unique             efficiency and effectiveness of
   lead responsibility for oversight
                                              function. This group was created         operations, and conducting
   of TVA’s financial statement
                                              when Inspector General Moore             inquiries into allegations of fraud,
   audit and related services
                                              recognized the need for a team           waste, abuse, and mismanagement.
   performed by TVA’s external
                                              that could provide a quick, yet          Audit and inspection issues vary
   auditor, reviews of TVA’s internal
                                              thorough review of TVA functions.        depending on the objectives of
   controls related to financial
                                              We refer to our Inspections group        the project. The following graphic
   reporting, audits of operational
                                              as the “Light Calvary.” The methods      shows some representative
   efficiency and TVA compliance
                                              used by this group allow them to         examples of issues commonly
   with laws and regulations as
                                              complete reviews quicker than            reported by each department.
   well as operational reviews to
                                              traditional audits by limiting the
                                              scopes of the reviews.


                                  Types of Audit and Inspection Issues
               Information                                 Operational Audits                         Contract Audits
            Technology Audits                    •	 Operational Inefficiency                •	 Inflated Proposals
     •	 Unauthorized Access                      •	 Not Achieving Intended Results          •	 Contract Overpayments
     •	 Inadequate Controls                      •	 Inferior Performance                    •	 Inferior Performance
     •	 Lack of Data Integrity                   •	 Legal/Regulatory Noncompliance          •	Fraud
     •	Fraud                                     •	Fraud




                 Financial Audits                          Distributor Audits                           Inspections
     •	 Internal Control Deficiencies             •	 Contract Noncompliance                 •	 Internal Control Deficiencies
     •	 Material Misstatements                    • 	Misstatement of Power                  •	 Operational Inefficiency
     •	 Legal Noncompliance                       	 Sales to TVA                            •	 Policy Noncompliance
     • 	 Fraud                                    •	Fraud                                   •	Fraud




24           T VA O I G S e m i a n n u a l R e p o r t
                              Major Categories of Investigations
                                    Contract Fraud                             Theft of Government
                              Defrauding TVA through its                       Property and Services
                          procurement of goods and services.                  Theft of TVA property and “schemes
                              Fraud schemes may include                        to defraud…designed to deprive
                           misrepresenting costs, overbilling                   individuals, the people, or the
                             charges, product substitution,                  government of intangible rights, such
                                    and falsification                     as the right to have public officials perform
                                 of work certifications.                             their duties honestly.”



     Environmental Crime                                 Health Care Fraud                             Illegal Hacking into TVA
 Violations of environmental criminal law          The intentional misrepresentation of                    Computer Systems
 pertaining to the Tennessee River system         health care services, expenses, billings,              Accessing a computer without
and its watershed, along with any violations         needs, or coverage that results in                   authorization or exceeding
     relating to TVA land and facilities.                 unauthorized payments                               authorized access.
                                                             or other benefits.




                                    Workers’                                   Employee Misconduct
                                Compensation Fraud                         Misuse of TVA furnished equipment,
                                 Includes employee fraud,                  travel voucher fraud, and a multitude
                              medical fraud, premium fraud,                  of miscellaneous matters of abuse.
                                 and employer fraud, most
                              often a false claim of disability
                                    to receive benefits.




iNVESTIGATIONS                                    other investigative agencies and                  or TVA. Additionally, this team
                                                  organizations on special projects                 provides legal advice as needed for
The Investigations team looks
                                                  and assignments, including                        administrative, audit, inspection
for activity related to fraud,
                                                  interagency law enforcement                       and investigative projects. The OIG
waste, and abuse in and of TVA
                                                  task forces on terrorism, the                     Legal Counsel also coordinates
programs and operations. This
                                                  environment, and health care.                     government relations for the office.
team performs its investigations
                                                  Above are major categories
in accordance with the Quality
                                                  of investigations.
Standards for Investigations. The
investigators maintain liaison with               LEGAL
federal and state prosecutors and
                                                  The OIG Legal Counsel team
file reports with the Department
                                                  monitors existing and proposed
of Justice whenever the OIG has
                                                  legislation and regulations that
reason to believe there has been
                                                  relate to the mandate, operations
a violation of federal criminal law.
                                                  and programs of the OIG and/
Our investigators partner with


                                                                                  T VA O I G S e m i a n n u a l R e p o r t            25
                              representative
                                     au d its
             N avigating                          Risk   |   T VA O I G




26   T VA O I G S e m i a n n u a l R e p o r t
 Summary of
 	 R E P R E SE N TAT I V E                     AU D I TS
  During this reporting period, the OIG completed 26 audits and 19 other projects and identified more than
  $6 million in questioned costs and funds which could be put to better use. The OIG also identified numerous
  opportunities for TVA to improve program operations. Audits in the following areas: (1) financial and
  operational; (2) contract preaward and compliance; (3) information technology; and (4) distributors of TVA
  power were completed this period.



Financial and                           will comply with environmental
Operational Audits                      regulations. At the same time,
                                        TVA is approaching a statutorily
During this semiannual period,
                                        imposed debt ceiling of $30 billion,
Financial and Operational Audits
                                        a major impediment to making
assessed TVA’s financial flexibility,
                                        needed investments. TVA currently
including the history and status of
                                        projects it will have accumulated
TVA’s financing and its alternatives
                                        approximately $27.4 billion in debt
for the future. The team also
                                        and debt-like instruments in fiscal
audited TVA’s cost recovery for
                                        year FY 2012. The amount of TVA’s
tritium production under an
                                        debt and debt-like instruments,
interagency agreement with the
                                        the debt ceiling, projected capital
Department of Energy. Finally, the
                                        needs, and statements from TVA
team reported on controls over
                                        executives make it clear that
the receipt and burning of coal
                                        TVA may experience issues with
at TVA fossil plants, transmission                                               Additionally, it is important to
                                        its ability to adequately fund
line inspection and maintenance,                                                 note that in the aftermath of the
                                        operations, maintenance, and
as well as green power pricing                                                   Kingston coal ash spill of
                                        capital projects without increasing
accreditation.                                                                   December 22, 2008, TVA has
                                        the debt ceiling or raising rates.
                                                                                 committed to being a more
History, Status, and Alternatives:      Furthermore, in light of the nation’s
                                                                                 transparent agency.
TVA Financial Flexibility               current weak economy and TVA’s
TVA faces a challenging financial       increased borrowings being               The financial flexibility report
situation, one that requires careful    considered part of the federal           presented an opportunity for TVA
consideration by TVA management,        deficit, TVA could have difficulties     to continue its commitment to
its Board of Directors, and             in getting the debt ceiling raised.      transparency on issues that affect
congressional and administration                                                 TVA stakeholders. In fact, the
                                        Our office undertook this review
officials. The company is making                                                 TVA Board and TVA management
                                        to assess TVA’s financial flexibility
significant investments to improve                                               encouraged the OIG to present
                                        and identify alternatives for the TVA
the condition of existing assets and                                             a fact-based report for TVA’s
                                        Board and executives to consider
bring new generation on-line that                                                stakeholders to consider. In
                                        in meeting future financing needs.
                                                                                 summary:


                                                                    T VA O I G S e m i a n n u a l R e p o r t        27
 VV TVA’s $30 billion debt ceiling            TVA currently uses an internal      VV TVA faces many challenges,
    was approved by Congress                  borrowing limit of $28 billion in      including an aging fossil fleet,
    in 1979. In 2010 dollars, the             statutory debt to provide for the      increased environmental
    purchasing power of the 1979              unexpected.                            regulations, and a pending
    $30 billion debt ceiling is only                                                 pension shortfall. TVA
    $10 billion. Further, if the          VV TVA has undertaken debt                 prefers to address these
    average annual Consumer Price            reduction efforts in the past,          challenges before reaching
    Indices from 1980 through 2010           but it has made limited                 the $30 billion statutory debt
    were applied on a cumulative             progress compared with its              cap. One alternative to meet
    basis to the existing debt               publicly announced goals.               these challenges is to increase
    ceiling, it would inflate to             Since 2005, there have been             the debt ceiling. However,
    more than $90 billion in 2010            efforts to transform TVA’s              increasing the debt ceiling
    purchasing power. TVA actually           business structure to increase          above the current $30 billion
    has a more restrictive debt              accountability and oversight by         limit would lead to a greater
    ceiling today than it did in 1979        changing the TVA Board from             amount of debt for TVA, which
    due to the effects of inflation.         three full-time to nine part-           could be perceived negatively
                                             time members, establishing a            in the current weak economy
 VV TVA’s current total financing            chief executive officer position        and foster uncertainty about
    obligations include statutory            to supervise its day-to-day             how higher debt levels can
    debt, energy prepayments,                activities, and requiring reports       be sustained. In addition,
    and leaseback obligations.               to be filed with the Securities         according to TVA’s Office of the
    TVA’s statutory debt balance             and Exchange Commission.                General Counsel, because of
    as of September 30, 2010,                Additionally, the TVA Board has         federal budgetary principles,
    was $23.4 billion and there              established a set of financial          TVA debt is presented in the
    was an additional $2.2 billion           principles to bring a new level         budget as being equivalent to
    in energy prepayments and                of discipline to TVA decision           TVA’s receipt and expenditure
    leaseback obligations. For               making and ensure continued             of federal appropriations and
    financial planning purposes,             financial health.                       would cause an equal increase



28      T VA O I G S e m i a n n u a l R e p o r t
   in the overall federal budget       and energy prepayments);                Possible consequences of these
   deficit that currently exists.      (6) entering into an agreement          findings include noncompliance
   Thus, Congress’ current mission     with another party for the purpose      with both the Economy Act and
   to reduce the federal deficit,      of financing new generation             TVA Act, resulting in ratepayer
   coupled with resistance from        (partnering); and (7) exploring a       subsidy of tritium production
   those who generally oppose a        combination of these alternatives.      and unreliable NPG financial/
   debt ceiling increase, could be                                             performance data. TVA
                                       Cost Recovery for
   a constraint to TVA’s success                                               management agreed to implement
                                       Tritium Production
   in getting the debt ceiling                                                 a document retention system to
   increased.                          We reviewed TVA’s cost recovery         ensure appropriate documents
                                       for tritium production under an         were retained for the life of the
Based on our review of TVA internal    interagency agreement with the          tritium program; develop an
documents, interviews with             Department of Energy (DOE). The         “economy act model” to estimate
TVA executives and personnel,          audit covered the period, January       tritium production costs over the
discussions with the Tennessee         2000 through December 2009,             entire 35-year life of the tritium
Valley Public Power Association,       with some scope restrictions due        agreement, and use this model
Inc., Office of Management             to incomplete accounting data.          to support tritium negotiations
and Budget (OMB) personnel             Additionally, we were unable to         in FY 2011, as well as implement
and consulting staff from              determine if tritium production         a project management plan and
PricewaterhouseCoopers, we also        costs were accurately identified and    improve relevant project controls.
presented several alternatives,        invoiced or if any negative impacts
                                       on plant operation from tritium
                                                                               Fossil Fuel Inventory
including the pros and cons of
each one, for TVA to consider in       production were reimbursed              TVA’s fossil fleet consists of
addressing its financing challenges.   by DOE, due to inadequate               56 operating units at 11 fossil
Although increasing the debt           documentation. Specifically,            plants in the Tennessee Valley.
ceiling has historically been TVA’s    we determined: Nuclear Power            Through the third quarter of FY
approach to meeting its financing      Group (NPG) did not (1) maintain        2010, TVA purchased 25.2 million
needs, it is by no means the only      complete accounting data,               tons of coal totaling $1.4 billion
financing strategy. However, debt      (2) negotiate rates that accurately     and burned 25.7 million tons
financing is TVA’s least cost option   reflected NPG’s anticipated costs,      totaling $1.5 billion. TVA’s fuel
to finance future capital needs.       (3) address $9 million in under-        inventory as of June 30, 2010, was
Some of the alternatives discussed     recovered overhead identified           $519 million. We assessed the
in this report include: (1) raising    in the previous OIG audit on the        operating effectiveness of controls
customer rates; (2) defining the       tritium agreement, (4) invoice          over the receipt and burning of
debt ceiling in terms of a financial   standby payments and overhead           coal at the fossil plants, including
metric rather than a fixed dollar      in compliance with the agreement        inventory adjustments. Specifically,
amount; (3) increasing debt ceiling    terms, (5) identify all additional      we determined:
incrementally based on planned         operating costs caused by tritium
capital needs; (4) deferring capital   production, (6) retain support for      VV The reports used to track
and operations and maintenance         $22.9 million in expenses and an           the variances in TVA weights
costs; (5) increasing the use of       unknown amount of revenues, and            versus vendor weights did
alternative financing arrangements     (7) properly classify revenue.             not consistently represent the
(lease-leasebacks, capital leases,                                                respective coal company, coal



                                                                  T VA O I G S e m i a n n u a l R e p o r t       29
                                                                                             Transmission Lines




     mine, or loading point, which             inventory adjustments that         TVA, in FY 2010, the TVA system
     could prevent the identification          exceeded the tolerable variance    delivered its eleventh straight year
     of significant issues.                    limit.                             of 99.999 percent reliability.

 VV Investigations of variances            TVA management agreed with our         We reviewed the inspection
    were not always coordinated            recommendations and is taking          and maintenance programs for
    between TVA Coal and Gas               corrective action to address these     transmission lines/structures and
    Services and plant personnel,          issues.                                ROW to evaluate the adequacy and
    which could impact the                                                        effectiveness of the programs. We
                                           Effectiveness of TVA’s
    efficiency of the investigations.      Transmission Line                      determined that the transmission
                                           Maintenance Program                    line inspection and maintenance
 VV Material tests, which ensure                                                  program is adequate and effective.
    the accuracy of the TVA scales,        TVA owns and operates one of
                                                                                  Specifically, we identified potential
    were not being conducted on all        the largest transmission systems
                                                                                  areas of improvement including
    receipt and burn scales annually       in North America, serving some
                                                                                  (1) instances in which transmission
    at the 11 TVA fossil plants.           9 million residents spanning
                                                                                  lines were not assigned a
                                           portions of seven states. The TVA
                                                                                  preventive maintenance inspection
 VV Documentation was not                  transmission system is comprised
                                                                                  interval, (2) improvements that
    consistently maintained for daily      of approximately 260,000 acres of
                                                                                  could be made to the manual and
    belt scale checks, weekly belt         transmission rights-of-way (ROW),
                                                                                  system documentation to allow for
    scale calibrations, and material       15,900 circuit miles of transmission
                                                                                  recording of inspection results and
    flow checks. Therefore, we were        lines, and 102,200 transmission
                                                                                  trending of recurring maintenance
    unable to determine whether            line structures. TVA’s transmission
                                                                                  issues, and (3) improvements
    these checks were regularly            system moves electric power
                                                                                  that could be made in scheduling
    conducted.                             from the generating plants to
                                                                                  preventive maintenance
                                           distributors of TVA power and to
                                                                                  inspections of tower lighting. TVA
 VV No formal process existed for          industrial and federal customers
                                                                                  management generally agreed
    conducting investigations on           across the region. According to
                                                                                  with our recommendations and



30       T VA O I G S e m i a n n u a l R e p o r t
has taken, or is taking, corrective    Contract Audits                          of contracts with expenditures
actions to address these issues                                                 totaling $11.8 million and
                                       Preaward Contract Reviews
                                                                                identified potential overbillings
TVA’s Compliance with                  To support TVA management                of $1.3 million. Highlights of our
the Green Pricing                      in negotiating procurement actions,      completed compliance audits
Accreditation Program
                                       we completed three preaward              follow.
TVA’s Green Power Switch Program       audits of cost proposals submitted
produces electric power from           by companies proposing to                VV We audited $2.2 million in costs
renewable resources such as solar,     provide (1) a perimeter stabilization       billed to TVA by a contractor for
wind, and methane gas, and adds        project for a TVA fossil plant,             providing “vacuuming services”
such sources to TVA’s power mix.       (2) upgrades to TVA’s hydro plants,         at TVA’s fossil and nuclear plants.
Both solar and wind power are          and (3) inspection services. Our            Our objective was to determine
produced in sufficient quantities      audits identified $4.9 million of           if the contractor had billed
to qualify for accreditation           potential savings opportunities             TVA in accordance with the
standards administered by the          for TVA to negotiate. The savings           contract terms and conditions.
Center for Resource Solutions          opportunities were primarily related        In summary, we determined the
(CRS). We completed agreed-upon        to ineligible sales taxes                   contractor had overbilled TVA
procedures to assist the CRS in        and overstated indirect cost                $686,466 including:
determining TVA’s compliance with      recovery rates.
the annual reporting requirements                                                     vv $257,807 in unsupported
                                       Contract Compliance Reviews
of CRS’ Green Pricing Accreditation                                                      costs related to (1) missing
Program, Green-e Energy for utility    During this semiannual period, we                 cost details and (2) labor;
pricing programs, for the year         completed two compliance audits
ended December 31, 2010. These
procedures included steps to
verify that the renewable energy
supply was sufficient to meet
sales, products met the Green-e
criteria and stated product content,
and marketing as well as product
information was accurate and
communicated to customers. The
results of the procedures verified
that TVA’s Green Power sales were
based on electricity generated or
acquired from eligible renewable
sources and otherwise met the
above aspects. CRS was provided
with the results of our work.


                                           Norris Dam




                                                                  T VA O I G S e m i a n n u a l R e p o r t         31
      vv $6,789 in duplicate billings;     Since the contractor added a           policy had been superseded and
                                           2.5 percent markup when it billed      much of the pertinent guidance
      vv $41,123 due to the use of
                                           TVA, the actual costs TVA paid         and specific policy information had
         incorrect billing rates;
                                           were inflated to $640,420. TVA         been omitted.
      vv $386,176 of ineligible            management is reviewing our
                                                                                  TVA management agreed with our
         costs for (1) mobilization/       findings to determine what actions
                                                                                  findings and plans to (1) reinforce
         demobilization, (2) per           to take.
                                                                                  the importance and benefits of
         diem, (3) labor escalation,       Other Contract Reviews                 Supply Chain’s use of Contracts
         (4) equipment and
                                           In 2007, TVA issued a procedure        Central; (2) correct various technical
         materials, and (5) fuel
                                           to ensure consistency in the           deficiencies identified; and
         surcharges; and
                                           tracking and handling of contract      (3) provide training and enhanced
      vv Credit for $5,429 in              documents and associated               guidance on the handling of
         discounts that had been           files across TVA. The procedure        contract documents.
         provided by the contractor.       established a standard method to
                                                                                  IT Audits
                                           be used by all TVA organizations
 VV We audited $9.6 million in costs
                                           for the storage and retrieval          During this semiannual period, we
    billed by a subcontractor to a
                                           of contract documentation in           completed 11 audits pertaining
    contractor (and subsequently
                                           Contracts Central, TVA’s repository    to: (1) implementation of TVA’s
    to TVA) for asbestos abatement
                                           for contract records.                  new fixed asset system and core
    and valve refurbishment
                                                                                  network switches; (2) a follow-up
    services at Watts Bar Nuclear
                                           We conducted an audit of TVA           assessment of the effectiveness of
    Plant. In summary, we
                                           Supply Chain’s centralized handling    TVA’s IT organization; (3) granting
    found the costs billed by the
                                           of contract documents to assess        physical and logical access to
    subcontractor were inflated by
                                           and determine compliance with          nonnuclear contractors; (4) Internet
    at least $624,800 because the
                                           the policy. In summary, we             firewall management; and (5) IT
    hourly rates the subcontractor
                                           found Supply Chain was not in          general controls for (a) a proposed
    billed for craft and nonmanual
                                           compliance with TVA policies           application service provider and
    labor included overstated cost
                                           regarding the use of Contracts         (b) TVA’s processes for logically
    allowances. The inflated costs
                                           Central. Specifically, our review      and physically protecting data
    included:
                                           of 225 contracts found that only       and other IT assets, developing
                                           120 contracts (53.3 percent) were      and implementing program
      vv $274,800 of craft labor
                                           available in Contracts Central.        changes, computer operations,
         billings that resulted
                                                                                  and configuration management.
         because the contractor’s
                                           Although we identified several         TVA management agreed with
         craft billing rates included
                                           technical reasons for Supply Chain’s   our findings and have initiated or
         overstated allowances for
                                           noncompliance with TVA’s policy,       completed actions to address our
         payroll tax costs; and
                                           overall, it appeared many contract     findings.
       vv $350,000 for nonmanual           managers and procurement               Pre-Implementation Reviews
          labor because the                agents did not understand the          Identified Process Improvements
     		 nonmanual billing rates 	          importance of having contract
     		 included excessive wage 	          documents located in a centralized     Pre-implementation audits are
     		 and burden rates.                  location. Additionally, we found       performed to evaluate and test the
                                           TVA’s original Contracts Central       proposed control environment in

32       T VA O I G S e m i a n n u a l R e p o r t
new systems. During this reporting
period, the OIG completed pre-
implementation audits for the
new fixed asset application and for
the core switch replacement. We
found implementation plans and
processes were generally adequate
regarding project planning and
management, as well as IT general
controls included in our audit
scope. However, we noted two
areas of concern during our pre-
implementation audit for the new
fixed asset application related to
ensuring technical and functional
specification documents are
                                      In 2010, the OIG completed a             Granting and Monitoring Access
complete and following the change
                                      follow-up assessment of TVA’s            to Nonnuclear Contractors
control process for all changes.
                                      IT organization to measure the           Needs Improvement
                                      effectiveness of its organizational
Improvements Needed to                                                         The OIG reviewed the IT controls
                                      structure, performance, cultural
Increase Effectiveness of IT                                                   for granting and monitoring
                                      maturity, and enterprise risk
Organization                                                                   nonnuclear contractor access
                                      management. We found the IT
                                                                               to TVA assets, including general
In 2007, the OIG completed an         organizational effectiveness did not
                                                                               network access. The OIG found
IT organizational effectiveness       improve, and in many areas had
                                                                               TVA’s controls over processes for
assessment that identified            declined, since the OIG’s previous
                                                                               managing and tracking nonnuclear
opportunities in the following        audit.
                                                                               contractor logical and physical
areas:                                                                         access need to be strengthened
                                      We found that (1) areas of high
                                                                               to reduce the risk of loss or
VV Integration of IT governance       and significant risk exist within
                                                                               compromise of sensitive TVA data
   with the TVA business strategy.    the IT organization; (2) operational
                                                                               and physical assets.
                                      maturity has decreased in four of
VV 	Strategic business partnering
                                      seven areas we reviewed;                 Weak IT General Controls
    and communication with
                                      (3) cultural issues exist in seven of    Found at a Proposed Application
    customers.
                                      the eight areas we assessed; and         Service Provider
VV Organization and policy            (4) IT does not produce reports
                                                                               We audited the IT general controls
   changes, performance               of total spend or meaningful
                                                                               for a proposed application
   measures, and service              comparative analysis with other
                                                                               service provider. We determined
   management.                        utilities of total spend. We
                                                                               control weaknesses existed in the
                                      compared the findings in this audit
VV Aging workforce and knowledge                                               areas of (1) account management,
                                      with those identified in the 2007
   transfer.                                                                   (2) system configuration
                                      audit. In general, the opportunities
                                                                               management, and (3) computer
VV Enterprise-level governance of     for improvement identified in 2007
                                                                               operations. We recommended that
   TVA IT investments.                still exist.
                                                                               if TVA proceeds in its negotiations


                                                                  T VA O I G S e m i a n n u a l R e p o r t    33
 with the vendor, it should                disaster recovery planning. We         During this semiannual period,
 coordinate with EIS&P to include          found:                                 the OIG completed five distributor
 contract language to ensure the                                                  audits. The following describes
                                           VV Internet firewalls and
 vendor appropriately remediates                                                  issues noted in our audits.
                                              supporting network devices
 the identified information
                                              were not physically segregated      Use of Electric System Funds for
 technology security control
                                              from other network hardware.        Nonelectric Purposes
 weaknesses.
                                              Such segregation would              One of the five distributors
 IT General Controls Were                     allow TVA to restrict access to     reviewed used electric department
 Generally Effective                          authorized staff and monitor        funds for nonelectric purposes,
                                              physical access to these devices.   inconsistent with the provisions
 When Congress passed the
 Consolidated Appropriations Act                                                  in its contract with TVA. This
                                           VV One TVA organization has not        distributor used electric system
 of 2005 which established the
                                              developed disaster recovery         funds to purchase a propane
 new nine member board for TVA,
                                              documentation which included        sales subsidiary, pay operating
 it also included requirements that
                                              a return-to-operations plan.        obligations of the propane
 TVA comply with Securities and
 Exchange Commission reporting             Distributor Audits                     sales subsidiary, and guarantee
 requirements, including certain                                                  lines of credit for the propane
                                           TVA sells power under the contracts    sales subsidiary and two other
 provisions of the Sarbanes-Oxley
                                           it has established with 155            nonelectric businesses the
 Act. As part of our audit
                                           distributors—municipalities and        distributor owned or partially
 plan, we tested the IT general
                                           cooperatives. These distributors       owned.
 controls for (1) program
                                           resell the TVA power to consumers
 development, (2) access to                                                       Expenditures of Electric System
                                           across the Tennessee Valley. The
 programs and data, (3) computer                                                  Revenues Inconsistent with
                                           sale of power to the distributors
 operations, (4) program changes,                                                 Contract Provisions
                                           comprises about 86 percent of TVA’s
 and (5) configuration management.
                                           operating revenue. Distributor         The OIG found another distributor
 Based on the results of our
                                           Audits assessed compliance with        that disbursed funds for electric
 audits, we found 10 of 19 control
                                           key contract provisions, including     system purposes, but the
 objectives were being met by
                                           accurate reporting of electric sales   expenditures were not made in
 existing processes and controls.
                                           by customer class to facilitate        accordance with the terms in its
 We also identified opportunities
                                           proper revenue recognition and         contract with TVA. Specifically, the
 for improvements in both control
                                           billing by TVA; nondiscrimination      distributor did not pay all electric
 design and control documentation.
                                           in providing power to consumers        system operating obligations
 Controls for Internet Facing              in the same rate class; and            incurred; made payments in lieu
 Firewalls Could Be Improved               proper use of power revenues.          of taxes during the 24-month
                                           Additionally, Distributor Audits       audit period before all operating
 The OIG evaluated (1) connectivity        made recommendations to help           obligations were paid and
 and placement of Internet                 distributors improve their internal    reasonable reserves were in place;
 firewalls, (2) firewall configuration,    controls and TVA management            and did not have reasonable cash
 (3) supporting network device             to improve its oversight of the        reserves prior to making payments
 configuration, (4) firewall               distributors.                          in lieu of taxes. While TVA and the
 management, and (5) firewall



34       T VA O I G S e m i a n n u a l R e p o r t
                                                                               In addition, we noted instances of
                                                                               noncompliance with other contract
                                                                               provisions including: (1) contract
                                                                               demand amounts in the billing
                                                                               systems of two distributors that did
                                                                               not agree with contract demand
                                                                               amounts on the actual contracts;
                                                                               (2) contracts lacking at three
                                                                               distributors for customers whose
                                                                               demand exceeded 1 megawatt;
                                                                               (3) cost allocations applied at one
                                                                               distributor for joint use of property
                                                                               and services not approved by TVA;
                                                                               and (4) no certifications on file
                                                                               at one distributor for customers
                                                                               classified under the manufacturing
                                                                               rate schedule. Generally, the
distributor did not agree with our     Other Contract Requirements             distributors agreed with the
findings, actions have been taken                                              findings and have corrected or
                                       We found distributors were not
by the distributor to address the                                              are taking action to correct these
                                       complying with certain other
issues identified.                                                             issues.
                                       contract requirements. Specifically,
Opportunities for TVA                  we noted issues with required           Classification and Metering
Oversight Improvements                 reporting of financial information      We noted instances where
We identified a new opportunity        to TVA, including (1) incorrect         customers were not classified
for TVA to improve its oversight of    reporting of certain assets,            properly and similar customers
distributors. Specifically, we found   liabilities, expenses, and income       were not classified the same at
TVA’s process for verifying accuracy   in the Distributor Annual Report;       all five distributors. The impact
of Distributor Annual Report           (2) incorrectly recording an amount     of these issues, where we had
financial information did not          owed to the city’s general fund         adequate information to estimate,
adequately identify and address        as a portion of the balance of a        was not significant. Generally,
reporting errors. We additionally      receivable account showing items        the distributors agreed with our
found opportunities to enhance         due from the city; and (3) not using    findings and have corrected or
TVA’s oversight at three of the five   the account structure prescribed        are taking action to correct these
distributors that had also been        in the Federal Energy Regulatory        issues.
reported in previous OIG distributor   Commission Uniform System of
audit reports. In response, TVA        Accounts as well as not having
agreed to take corrective action on    a reconciliation of the accounts
these issues.                          used to the prescribed system of
                                       accounts.




                                                                  T VA O I G S e m i a n n u a l R e p o r t        35
                              representative
                     inspections
            N avigating                           Risk   |   T VA O I G




36   T VA O I G S e m i a n n u a l R e p o r t
  Summary of
  	 representati v e                               inspections
 During this semiannual period, Inspections completed eight reviews. Our
 consultant, Marshall Miller, completed three peer reviews associated with
 (1) the stability analysis of ash disposal areas 2 and 3 at the Johnsonville
 Fossil Plant, (2) stability analysis of the gypsum stack at the Widows Creek
 Fossil Plant, and (3) Johnsonville Fossil Plant dike stability improvements;
 and a review of the environmental sampling and monitoring plans for the
 Kingston ash spill. Inspections completed four additional reviews pertaining
 to (1) TVA groundwater monitoring at coal combustion products disposal
 areas, (2) TVA’s fossil fire protection systems, (3) TVA’s plan for removal of
 equipment containing PCB, and (4) the Section 26a permitting process. More
 information on each of the reviews can be found below.


                                                                                       Johnsonville Fossil Plant



Marshall Miller Reviews                   related to the Kingston ash spill.        In Marshall Miller’s opinion,
                                          These reports conclude a series           Stantec followed generally
On December 22, 2008, a retention
                                          of reports related to the Kingston        accepted practices and arrived
wall for an ash containment area
                                          ash spill in which we used Marshall       at reasonable predictions of exit
at the Kingston Fossil Plant failed
                                          Miller to assess TVA’s progress and       gradients. Marshall Miller found
and resulted in approximately
                                          actions. The details of the specific      Stantec arrived at reasonable
5.4 million cubic yards of coal ash
                                          reviews are discussed below.              shear strength properties for the
being released. As a result, TVA
                                                                                    generalized material layers and
commissioned the engineering              Peer Review of the Stability
                                          Analysis of Ash Disposal Areas            zones.
firm Stantec Consulting Services,
Inc. (Stantec), to rigorously             2 and 3 at the Johnsonville
                                                                                    Based on the review of Stantec’s
inspect, evaluate, and make               Fossil Plant
                                                                                    slope stability analyses, it was
recommendations on ash storage            Marshall Miller conducted a peer          Marshall Miller’s opinion Stantec
facilities at all its fossil plants. We   review of the Stantec report on           performed stability analyses for
retained Marshall Miller to conduct       geotechnical exploration and slope        static, long-term load conditions
a peer review on selected Stantec         stability for ash disposal areas          using appropriate methodologies
reports related to geotechnical           2 and 3 at the Johnsonville Fossil        and reasonable material
exploration and slope stability, as       Plant. Marshall Miller contended          properties. TVA management and
well as documents for proposed            Stantec’s evaluation provided             its contractor, Stantec, provided
improvements to the stability of          a reasonable assessment of the            additional information to address
one site. Additionally, we retained       margin of safety associated with          Marshall Miller’s findings and
Marshall Miller’s service to evaluate     the evaluated conditions, which           recommendations identified in its
the adequacy and completeness of          indicated that the facility was not in    report. Marshall Miller concluded
TVA’s environmental recovery plans        danger of imminent failure.               the additional information


                                                                       T VA O I G S e m i a n n u a l R e p o r t       37
 adequately addressed the
 concerns and recommendations
 identified in the report.

 Peer Review of the Stability
 Analysis of the Gypsum Stack at
 the Widows Creek Fossil Plant
 Marshall Miller conducted a peer
 review of the Stantec report on
 geotechnical exploration and
 slope stability for the gypsum
 stack at the Widows Creek Fossil
 Plant. Marshall Miller stated
 Stantec’s evaluations of the
 Widows Creek gypsum stack                 Widows Creek Fossil Plant
 provided a reasonable assessment
 of the margin of safety associated        TVA management and its                construction; however, they found
 with the evaluated conditions,            contractor, Stantec, provided         that the details of the graded
 which indicated the facility was not      additional information to address     filter portion of the stabilization
 in danger of imminent failure.            the findings and recommendations.     berm did not conform closely
                                           Marshall Miller concluded the         to current standards of practice
 Marshall Miller did find additional
                                           additional information provided       and presented constructability
 analyses and corresponding
                                           adequately addressed the concerns     issues at locations where the
 documentation was needed in
                                           and recommendations it identified     installation conditions were more
 order to assess the overall safety
                                           in the report.                        challenging. TVA management and
 factor of the stack in the mid- and
                                                                                 its contractor provided additional
 long-term. Marshall Miller also           Peer Review of Johnsonville
                                           Fossil Plant Dike Stability           information to address the findings
 found Stantec used a model that
                                           Improvements                          and recommendations. Marshall
 was 20 feet lower than the final
                                                                                 Miller concluded the additional
 height of the stack which does not        Marshall Miller conducted a peer
                                                                                 information provided adequately
 reflect the final conditions of the       review of the Stantec documents
                                                                                 addressed its concerns and
 pile. Additionally, Marshall Miller       for proposed improvements to the
                                                                                 recommendations identified in the
 found Stantec did not (1) perform         stability of the Northeast Dike of
                                                                                 report.
 adequate testing to support               the Ash Disposal Area No. 2 of the
 reliance on historical data and           Johnsonville Fossil Plant. Based on   Review of the Environmental
 shear strength characterization           Marshall Miller’s technical review,   Sampling and Monitoring Plans
 of some materials, (2) calculate          Stantec used generally accepted       for the Kingston Ash Spill
 and document the exit gradient            methods and practices to design       Marshall Miller was hired
 and factors of safety against             the stability improvements.           by the OIG to review the
 piping for the five year build-out
                                                                                 sampling and monitoring plans
 configuration, and (3) perform            Marshall Miller found the plans for   for the ash release that occurred
 sufficient investigation of the clay      construction prepared by Stantec      at the Kingston Fossil Plant on
 foundation soils.                         provided suitable guidance for        December 22, 2008. Marshall


38       T VA O I G S e m i a n n u a l R e p o r t
Miller evaluated the adequacy              the Environmental Protection             native river sediments, some
and completeness of TVA                    Agency invalidating the                  ash will remain in the river after
environmental recovery plans               Particulate Matter data.                 dredging is complete.
to determine whether the plans
                                        VV 	There has been limited research     TVA management agreed with
provided comprehensive and
                                            on how the ash and the metals       Marshall Miller’s recommendations
effective measures to adequately
                                            associated with ash will affect     and has taken or plans to
monitor the potential short- and
                                            the various organisms in            take action based on the
long-term impacts to human
                                            the river system. Additional        recommendations.
and ecological receptors. The
                                            investigations by a variety of
scope of the review included TVA
                                            research organizations are          TVA’s Groundwater Monitoring
environmental recovery plans
                                            underway, primarily in support      at Coal Combustion Products
available through June 2010. In
                                            of the River System Engineering     Disposal Areas
summary, Marshall Miller found no
                                            Evaluation/Cost Assessment.
significant deficiencies in the plans                                           This review was initiated because
or procedures TVA or its contractors    VV Data from air testing for metals     of questions raised during
used in characterizing impacts             and groundwater testing are not      congressional testimony following
resulting from the ash release or          readily available to the public.     the Kingston ash spill in December
recovery efforts. It should be noted                                            2008. The objectives of this
that the assessment of long-term        VV Due to ”legacy” contaminants         review were to determine whether
impacts will be ongoing during and         in the sediment in the lower         TVA (1) performed groundwater
after the recovery effort.                 1.8 miles of the Emory River         monitoring as prescribed by
                                           (associated with activities at       the permits and (2) found levels
While Marshall Miller did not find         the ORNL) and the difficulty         of constituents monitored that
any significant deficiencies early         in removing the ash without          exceeded regulatory limits and,
in the recovery process, some of           disturbing existing “legacy” and
the analytical results did not pass
prescribed quality assurance/
quality control standards, and the
data were invalidated. When the
deficiency was noted, TVA took
appropriate steps to correct the
situation, and it does not appear
any decisions regarding the clean-
up efforts were affected by the data
quality.

Marshall Miller noted the following:

VV 	Bureau Veritas Laboratories used
    an incorrect analytical method
    for particulate monitoring            TVA Coal
    from September 2009 to
    January 2010. This resulted in



                                                                   T VA O I G S e m i a n n u a l R e p o r t        39
 if so, implemented required              a minor modification of both           Finally, TVA installed 29 monitoring
 corrective actions.                      permits to remove the constituents     wells at nine sites in 2010 and has
                                          that were not being monitored,         committed to conducting at least
 The burning of coal at TVA’s fossil      and Tennessee Department of            one sampling event at each site
 plants produces coal combustion          Environment and Conservation           by the end of 2011 as part of a
 products. Coal combustion                personnel stated this would be         commitment to the Utility Solid
 products consist of fly ash, bottom      approved.                              Waste Activity Group (USWAG).
 ash, and gypsum. Currently,                                                     USWAG is an association of the
 TVA ash and gypsum are stored            Additionally, exceedances were         Edison Electric Institute, the
 in a landfill or a pond, disposed        found at eight of the nine fossil      American Public Power Association,
 of off-site, or beneficially used.       plants where monitoring was being      the National Rural Electric
 If coal combustion products              conducted. TVA has two plants          Cooperative Association, and
 are stored in a landfill, the coal       in Tennessee that have chemical        approximately 80 electric utility
 combustion products are regulated        components in the CCP which may        operating companies. USWAG
 in Tennessee and Kentucky, but           be present in groundwater that         has an action plan focused on
 not in Alabama, under solid              exceeded health-based limits. The      having groundwater monitoring
 waste regulations. Solid waste           plants were working through the        wells installed at all active CCP
 regulations in Tennessee and             corrective action process described    disposal areas. In December
 Kentucky require groundwater             in Tennessee Rule 1200-1-7, Solid      2007, TVA notified USWAG of its
 monitoring. Coal combustion              Waste Processing and Disposal. An      intent to endorse the voluntary
 products contain heavy metals            additional two plants in Tennessee     commitments prescribed in the
 and other constituents that can          have been placed in the second         action plan.
 migrate into groundwater. High           highest phase of assessment, which
 concentrations of constituents           occurs when there is a statistically   We recommended the Senior
 could potentially pose health            significant increase above             Vice President for Environment &
 problems ranging from mild               background levels for a constituent.   Technology continue (1) plans to
 irritation to death.

 During our review, we found,
 in some instances, TVA was               Cumberland Fossil Plant
 not performing monitoring as
 prescribed by the permits. For
 calendar years 2008 and 2009, TVA
 was monitoring for the required
 constituents and performing tests
 within the required time frames
 at ten coal combustion product
 (CCP) areas at seven fossil plants.
 However, TVA was not monitoring
 for all permit-required constituents
 at Cumberland and Johnsonville
 Fossil Plants. TVA requested




40      T VA O I G S e m i a n n u a l R e p o r t
  Gallatin Fossil Plant




implement monitoring at all active    damage. However, every year, fire         40 and 158 days, depending on the
CCP disposal areas, and (2) with      protection systems throughout the         site. The average number of days
the assessment plan and initiate      industry fail to operate satisfactorily   far exceeds the maximum 48-hour
corrective actions for Cumberland     in fire situations. In about one-         time frame for system repairs to
and Gallatin Fossil Plants. TVA       third of these cases, the cause is        occur as laid out in the TVA Fire
management agreed with these          inadequate inspection, testing, and       Protection System Impairment
recommendations.                      maintenance.                              policy.
Review of TVA’s Fossil
Fire Protection                       The objective of this review was          We also found some fire brigade
                                      to determine if TVA fire protection       members who were concerned
Fire hazards such as large            systems were adequately                   about fire response preparedness.
quantities of fuel, combustible/      maintained and mitigating actions         At TVA’s coal-fired plants, a number
flammable liquids, electrical         were taken to minimize the impacts        of plant personnel participate
hazards, combustible dusts,           of fires at TVA fossil plants. During     as fire brigade members.
and warehousing are common            our review, we identified a number        These individuals take on the
in electric generating plants.        of issues related to fire protection      responsibilities of fire brigade
Although fires are not a daily        at TVA fossil plants. We found            members in addition to their
occurrence at TVA, they could         numerous fire protection systems          normal job duties. Their concerns
cause severe property damage          out of service (impairments) at a         included poor fitting equipment,
and business interruption.            number of sites, and most systems         condition of the fire trucks, an
Fire protection systems are a         were not returned to service in a         inadequate staging area, bad
combination of mechanical and         timely manner. During calendar            communication equipment, not
electrical components and, like       year 2010, there were                     enough training, and insufficient
power generation equipment, need      30 impairments at Cumberland,             staffing.
regular attention. If these systems   10 at Gallatin, 6 at John Sevier,
are needed, they are counted          20 at Paradise, and 49 at Shawnee.        Additionally, we found lessons
upon to perform reliably and          The impairments in 2010 that have         learned from fire events were not
protect vital plant equipment from    since been resolved lasted between        consistently communicated across




                                                                   T VA O I G S e m i a n n u a l R e p o r t      41
 the fleet. Lessons learned were
 shared in different ways and were
 not always shared with fire brigade
 members. We also identified
 opportunities for improvement
 with fire prevention. During our
 review, we observed areas of
 significant coal dust accumulation
 and evidence of smoking at several
 sites. Lastly, we found instances
 of noncompliance with TVA policy
 regarding testing, inspection, and
 maintenance of fire protection
 equipment, pre-fire plans, and use
 of fire equipment. We identified
 some systems that were not
 inspected and tested as required,
 pre-fire plans in need of updating,
 and fire hoses being misused.
                                           fire incidents and report them         of this review was to determine
                                           in a consistent manner to the          whether the TVA is meeting all
 We recommended the Senior
                                           Operations Information Center;         requirements and planned actions
 Vice President, Fossil Generation,
                                           (4) perform regular coal wash-         for the removal of equipment
 (1) take immediate steps to
                                           downs at all the plants to minimize    containing PCBs.
 restore all impaired fire protection
                                           coal dust accumulations, and
 systems to service and determine if
                                           strictly enforce TVA’s “No Smoking”    PCBs are toxic and persistent
 additional personnel or resources
                                           policy; and (5) evaluate whether       chemicals primarily used as
 are needed to expedite repairs
                                           additional personnel are needed to     insulating fluids in heavy-duty
 of fire protection systems in
                                           properly inspect, test, and maintain   electrical equipment in power
 the future; (2) determine (a) the
                                           fire protection equipment, update      plants, industries, and large
 equipment needs of fire brigade
                                           pre-fire plans to reflect current      buildings across the country. PCBs,
 members, including protective
                                           conditions, and reinforce that         valued for chemical stability and
 equipment and emergency
                                           fire equipment is only to be used      fire resistance, were manufactured
 communication devices, and take
                                           by fire brigade personnel. TVA         and processed from 1929 through
 steps to provide that equipment,
                                           management agreed with the             the late 1970s.
 (b) what additional training is
                                           recommendations.
 needed for fire brigade members
                                                                                  In 1979, the Environmental
 and take steps to provide that            TVA’s Plan for Removal of
                                                                                  Protection Agency banned the
 training, and (c) if increased staffing   Polychlorinated Biphenyl
                                                                                  manufacture of PCBs through
 is warranted for fire brigades;           Containing Equipment
                                                                                  the Toxic Substances Control Act.
 (3) create and implement a formal
                                           This review was a follow-up to         Since the ban, no new equipment
 process for capturing and sharing
                                           previous reviews performed by          containing PCBs at concentrations
 lessons learned from fire events
                                           the OIG in this area. The objective    greater than or equal to 50 parts
 across the fleet, and capture all



42       T VA O I G S e m i a n n u a l R e p o r t
per million has been manufactured        and (b) developing a standard           During the review, we determined
in the United States. The number         methodology for assessing the risk      that while TVA’s Land and
of PCB transformers in the United        of PCB equipment to prioritize its      Stewardship Management has a
States is decreasing, but many are       removal; and (2) provide dedicated      defined listing of estimated ranges
still in use. As the useful life of      funding to expedite efforts to          for how much an applicant may
transformers is typically no more        determine the PCB-contaminated          pay, a listing of predetermined
than 30 to 40 years, PCB-containing      inventory in order to prioritize and    standard fees to be charged,
equipment is nearing the end of its      allocate funding for the removal        methods for tracking application
expected useful life. Equipment is       of this equipment. Until the            costs and cycle time, and means for
increasingly vulnerable to leaks as it   PCB-contaminated equipment              assessing customer satisfaction, use
becomes older.                           inventory is completed, TVA should      of these tools could be improved.
                                         treat all fires involving electrical    Specifically, we determined
In 2008 TVA issued an                    equipment as if they contained          (1) costs for cost recoverable
environmental policy that                PCBs until determined otherwise.        permits may not be fairly
contained the following PCB critical     TVA management agreed with the          and consistently applied and
success factor: “Further reduce the      recommendations.                        opportunities exist to improve the
risk of polychlorinated biphenyl                                                 cost recovery process, (2) processes
                                         Efficiency and Effectiveness
(PCB) releases to the environment                                                could be improved for the
                                         of the Section 26a Permitting
over time by eliminating use of                                                  examination and use of customer
                                         Process
PCBs in large electrical equipment.”                                             satisfaction survey results, and
                                         At the request of TVA’s CEO,            (3) fee waivers were not properly
During our review, we found there        we evaluated key aspects of             documented. We also identified
were currently no requirements for       TVA’s Section 26a process for           two other issues related to the
the removal of PCB equipment and         effectiveness and efficiency. Under     segregation of duties for receiving
previous planned actions for PCB         Section 26a of the TVA Act of 1933,     and refunding of application fees.
equipment removal by TVA were            TVA has the authority to regulate       We made recommendations to
not completed. Additionally, we          land use and development along          which TVA management agreed to
found TVA was at significant risk        the river system’s 11,000 miles         take corrective action.
from the continued use of PCB-           of public shoreline. Section 26a
contaminated equipment, as               requires TVA approval prior to
(1) TVA maintains one of the largest     the construction, operation, or
inventories of PCB equipment in          maintenance of any obstruction
the electric utility industry, (2) the   affecting navigation, flood control,
condition of some PCB equipment          or public land or reservations
at TVA increases the risk of an          along the Tennessee River and its
incident, and (3) TVA does not have      tributaries. Obstructions could
an accurate inventory of its PCB-        include structures such as boat
contaminated equipment.                  docks, piers, boathouses, shoreline-
                                         based shelters, commercial
We recommended the Chief                 marinas, community docks, barge
Operating Officer (1) expedite the       terminals, bridges, and culverts.
removal of PCB equipment by
(a) providing dedicated funding



                                                                    T VA O I G S e m i a n n u a l R e p o r t     43
                              representative
                investigations
            N avigating                           Risk   |   T VA O I G




44   T VA O I G S e m i a n n u a l R e p o r t
Summary of
	 R E P R E SE N TAT I V E                        I N V E ST I G AT I O NS
 This reporting period was an active one for OIG Investigations. Our findings produced results including five convictions, six
 indictments, and one pretrial diversion. The individuals were prosecuted in state and federal venues, on various charges such as
 major fraud, workers’ compensation fraud, false statements, and theft. Additionally, one administrative investigation identified
 wasted funds exceeding $9.6 million on a fossil plant project, and other investigations garnered restitution, fines, and fees
 exceeding $9,000. Administrative cases resulted in process improvements as well. We opened 190 investigations and closed
 228. Highlights of our investigative accomplishments follow.



Contract Medical Case Manager              manager is alleged to have                 Two Nuclear Contractor
Indicted for Scheme to Defraud             regularly misclassified injuries by        Employees Prosecuted for
                                           downgrading the severity of the            Falsification of Quality Control
We previously reported a TVA
                                           injuries or falsely claiming the           Documents
contractor company entered
                                           injuries were not work-related,
into a Civil False Claims Act                                                         We previously reported a WBN
                                           resulting in false reports being
agreement to pay TVA $6.2 million                                                     contractor electrician was indicted
                                           submitted to TVA.
(double damages) to resolve a                                                         in federal court on two felony
contract fraud investigation                                                          counts of knowingly making
                                           During this semiannual period, our
related to its injury-reporting                                                       written, material false statements
                                           investigation resulted in a federal
practices. The company’s contract                                                     within the jurisdiction of a federal
                                           11-count indictment against the
with TVA was valued at more than                                                      agency. Recently, the individual
                                           former medical case manager.
$8 million and provided additional                                                    pled guilty to one count of the
                                           The indictment charges the
performance-based fee payments                                                        indictment. He stipulated in the
                                           case manager with fraudulently
to the company if certain goals                                                       plea agreement he completed
                                           manipulating injury reports to
were met. One such payment was                                                        TVA forms purporting to state
                                           allow the manager’s employer to
tied to personnel safety and was                                                      micrometer readings of cables that
                                           receive safety bonuses exceeding
measured by injury rates and the                                                      were installed to provide energy
                                           $1.5 million for its nuclear work
total number of injuries at each of                                                   to equipment, including safety
                                           at TVA. Specifically, as a result of
the TVA nuclear facilities where the                                                  equipment, inside the containment
                                           his alleged participation, the case
company employed workers.                                                             structure at WBN Unit 2. After
                                           manager was charged with nine
                                                                                      approximately 200 such entries
                                           counts of major fraud, conspiracy to
We have since investigated                                                            were submitted, it was discovered
                                           commit wire fraud, and conspiracy
criminal allegations against the                                                      the entries were either inaccurate
                                           to commit money laundering.
company’s medical case manager.                                                       or purported to be measurements
The manager was responsible                                                           of cables that did not exist.
for reviewing and classifying the                                                     Recently, the contractor employee’s
contractor-company employees’                                                         supervisor also was charged with
injuries sustained while working                                                      one felony count of making false
at three TVA nuclear sites. The                                                       statements by attesting with



                                                                         T VA O I G S e m i a n n u a l R e p o r t         45
 his signature the questioned             the program to receive benefits to
 micrometer readings had been             which she was not entitled.
 completed when he knew they
                                          Former TVA Employee
 had not.
                                          Convicted on Theft for TVA
 Investigation Results in                 Credit Card Misuse and
 Conviction for False                     Fraudulent Direct Billing to TVA
 Statements Related to Clean
                                          A TVA Human Resources review
 Water Act Violations
                                          showed a former Financial Services
 As members of the Environmental          employee used a TVA credit card
 Crimes Joint Task Force, we              to make unauthorized personal
 investigated allegations against                                                K-9 Officer
                                          charges exceeding $2,500. His
 a Niota, Tennessee, sewage               management subsequently
 treatment plant operator/                discovered he direct-billed TVA for   our investigation, he was indicted
 employee. As a result of our             hotel stays after his resignation.    and subsequently arrested. He now
 findings, the former operator            TVA was held liable for paying        faces a one-count indictment in
 was charged with violating the           the credit card and was unable        federal court for his unauthorized
 Clean Water Act by falsifying            to recoup the funds after several     use of the card.
 chlorine records and discharge-          attempts. We investigated this
 monitoring reports 72 times
                                                                                Drug Sweep at John Sevier
                                          matter, and the individual was        Combined Cycle (JCC)
 over a two-year period, affirming        prosecuted for theft in the State
 wastewater was chlorinated
                                                                                Construction Site Resulted in
                                          of Tennessee. He was convicted        Four Arrests
 at correct levels, when, in fact,        during this reporting period and
 nondisinfected wastewater was            sentenced to 11 months and            During this semiannual period, the
 discharged into the Little North         29 days of unsupervised probation     OIG assisted TVA Police, along with
 Mouse Creek (a tributary of the          (suspended sentence) and paid         local law enforcement personnel
 Hiawassee River and part of              more than $4,000 in court costs and   and K-9 officers, in conducting a
 the Tennessee River Watershed            restitution to TVA.                   search for illegal drugs at the JCC
 management area). The individual                                               construction site. The search was
 subsequently pled guilty to              Former Contractor Employee            initiated based on two construction
 12 counts of the indictment and          Indicted for Theft and Misuse of      contractor employees’ recent drug
 awaits sentencing.                       TVA Gas Card                          arrests near the site and concern
 Former TVA Employee                      It was reported to us a TVA credit    about JCC copper-tool thefts.
 Indicted for Workers’                    card designated for gas expenses      (Stolen copper can be an indicator
 Compensation Fraud                       was missing; the vehicle it was       of illegal drug activity; it is often
                                          assigned to had not been driven;      sold to finance drug abuse.)
 An investigation revealed a former
                                          and an unknown person had used
 fossil plant employee received total
                                          the card multiple times at various    As a result of the sweep, four
 disability benefits under the Office
                                          locations. Our inquiry, which         persons contracted to the same
 of Workers’ Compensation Program
                                          included reviewing convenience        construction company were
 (OWCP) while actively employed
                                          store security tapes, identified      arrested. Drugs found included
 in the Chattanooga area. A one-
                                          the gas card user as a TVA hydro      crack cocaine, marijuana, and
 count federal indictment charged
                                          contractor employee. As a result of   Schedule III and IV prescription
 her with knowingly defrauding



46      T VA O I G S e m i a n n u a l R e p o r t
medication. Additionally during        work that resulted in avoidable          Clearance Requirements
the search, a prohibited weapon        power replacement costs related          to Access TVA Critical
(SWAT knife) was confiscated from a    to the COF Unit 5 precipitator           Assets Revised
contractor employee’s vehicle, and     overhaul. Criminal activity was
                                                                                We determined Power Control
containers of urine were found on      not found; however, we found
                                                                                System contractors, serving as
two of the arrested individuals, who   avoidable and costly project
                                                                                system administrators, were
were additionally charged with         delays by the contractor that were
                                                                                working in critical TVA facilities
attempting to falsify a drug test.     attributed to the following:
                                                                                and accessing critical TVA cyber
                                       (1) a flawed original structural
The construction company’s                                                      assets even though TVA had only
                                       design and lack of design analysis;
management cooperated fully                                                     conducted a minimal inquiry into
                                       (2) the impact of differing
with the investigative team. Other                                              their backgrounds. We found
                                       center-line points (construction
agencies (all State of Tennessee)                                               three contractors serving in these
                                       point versus structural design
included Hawkins, Greene, and                                                   positions without necessary
                                       point); and (3) damage to
Knox County sheriffs’ offices;                                                  clearances. They were restricted
                                       precipitator collector plates,
Greeneville, Knoxville, and                                                     from the site until appropriate
                                       requiring unscheduled
Morristown police departments;                                                  inquiries were completed.
                                       straightening of 75 to 80 percent
the Highway Patrol; and other
                                       of the plates. TVA calculated
members of Tennessee’s Drug                                                     All personnel with access to TVA
                                       the difference between the total
Diverson Task Force.                                                            critical assets will be required
                                       cost of the unplanned outage
                                                                                to obtain at least a TVA Critical
$9,693,195 Waste Identified at         extension due to these factors
                                                                                Sensitive clearance. A team
Colbert Fossil Plant (COF)             and the total cost to operate the
                                                                                consisting of representatives from
                                       unit as $9,693,195. (TVA’s Office of
The OIG investigated, but did                                                   TVA Police and Physical Security,
                                       General Counsel [OGC] could not
not substantiate, an allegation                                                 Human Resources, and Labor
                                       find grounds in the terms of the
that contractors at COF falsified                                               Relations is scheduled to develop
                                       contract to allow TVA to recover
technical documents. However,                                                   an implementation timeline and
                                       from the contractor the identified
during the course of the                                                        communications plan to notify
                                       cost.)
investigation, the OIG identified                                               labor unions, management, and
issues in a contractor company’s                                                employees of this change. In
                                                                                addition, all TVA officers have been
                                                                                mapped to a required clearance
                                                                                level and investigations have been
                                                                                initiated and conducted for those
                                                                                who did not meet the required
                                                                                clearance level.

                                                                                Nuclear Contractor Company
                                                                                Formalizes Checkout Process
                                                                                A Watts Bar Nuclear Plant (WBN)
                                                                                Unit 2 contractor employee was
                                                     Colbert Fossil Plant       terminated for sexual harassment
                                                                                early this year. Two months




                                                                   T VA O I G S e m i a n n u a l R e p o r t        47
                                          with the contractor-company          Our resulting report outlined
           Watts Bar Nuclear Plant        management, the company              the status of each contract with
                                          determined its checkout processes    respect to coal being mined,
                                          were inadequate and established      whether payments were current,
                                          formal guidelines for its WBN        and the reclamation status of the
                                          Unit 2 personnel. These processes,   various properties. The review
                                          formally effected this reporting     found for three of the four leases
                                          period, delineate checkout           the payments were current and
                                          procedures and specifically          in compliance with contract
                                          reference TVA nuclear policy on      terms. One lease, because it had
                                          proper reporting of suspensions,     been reassigned, was not current;
                                          for-cause terminations, and          and, as a result of our report,
                                          voluntary or involuntary             FGD&C has met with the new
                                          separations. In addition, the        leaseholders to bring the payments
                                          company required management          current. Other recommendations
                                          training on these issues.            included establishing tracking
                                                                               and documentation methods,
                                          Investigators and Auditors
                                                                               improving training, and ensuring
                                          Conduct Joint Review on
                                                                               ongoing communication between
                                          Mineral Rights
                                                                               FGD&C business services and
                                          The Senior Vice President, Fossil    operations to account for, manage,
                                          Generation Development and           and track the mineral leases.
                                          Construction (FGD&C), requested
                                                                               Process Improvement Will
                                          the OIG review the mineral rights
                                                                               Result in Savings to TVA
                                          leased to four coal corporations.
 later, former coworkers were             TVA owns 773.6 million tons of       TVA management reported a
 alarmed to find this person back         coal in reserve in three states      nuclear manager received more
 on site, working for a different         and has leased these rights to       than $90,000 in reimbursements
 TVA contractor company. TVA              the four companies. In addition      for travel to his official duty station
 Personnel Security had not been          to mining the property for coal,     during a three and a half year
 notified by the contractor’s             the leased mineral rights allow      period. We found the individual’s
 company to block the person’s            TVA and/or the companies to          approving officer, who is no longer
 access to the site, although the         build roads, construct power         employed at TVA, had authorized
 company had documented                   lines, or conduct other activities   travel reimbursement contrary to
 internally the individual was not to     necessary to mine coal. Both         TVA policy from the individual’s
 be rehired. Subsequently, TVA had        OIG auditors and investigators       out-of-state residence to his TVA
 the individual removed from WBN,         participated in the review. Our      duty station. TVA management,
 and Personnel Security denied this       objective was to determine if TVA    Human Resources, and the OGC
 individual access to all TVA nuclear     received appropriate payments as     determined the individual will
 sites.                                   outlined in the various leases and   reimburse TVA the entire sum.
                                          whether contract terms were being
 As a result of our involvement,          followed.                            The OIG issued a report, and
 including discussing the matter                                               our recommendations were



48      T VA O I G S e m i a n n u a l R e p o r t
implemented as follows.                 best practices for dependent             As a result of our investigation, the
Accounting Services established         verification and explore options for     individual paid full restitution to
controls in the Expense                 strengthening its existing process,      TVA. (Prosecution was declined.)
Reimbursement System to disallow        including the audit process.
reimbursement for travel to an
                                                                                 TVA OIG Helps U.S. Attorney’s
employee’s official duty station.       With the next revision of the
                                                                                 Office (USAO) Collect Court-
Additionally, Accounting Services       medical plan description and
                                                                                 Ordered Restitution
is in the process of identifying        open enrollment communications,          During a prior semiannual period,
other employees who may have            Employee Benefits plans to add           we reported two individuals were
received reimbursement for travel       language that common-law                 convicted of bank fraud, mail fraud,
to their official stations before the   spouses may be eligible for plan         and money laundering related to
new controls were in place and will     coverage if the employee resides         misuse of loans obtained from TVA’s
review these reimbursements and         in a state that recognizes common-       Economic Development program
notify the OIG as necessary.            law marriage.                            and the Citizens Bank of Hickman,
                                                                                 Kentucky. The two were sentenced
Falsification of Benefit Plan           Employee Reimbursed TVA for
                                                                                 to incarceration and jointly and
Records Resulted in                     Improper Benefits Payments
                                                                                 severally ordered to pay restitution
Employment Termination
                                        It was brought to our attention a        ($420,733 to TVA and $4,104,563 to
and Initiation of
                                        fossil plant employee listed a live-in   Citizens Bank).
Process Improvements
                                        companion and her children as
Our investigation determined a          dependents on an OWCP benefits           During this semiannual period,
nuclear employee listed his former      request form. This allegation was        the USAO, Western District of
wife as his spouse for benefit          substantiated, and we found the          Kentucky, requested our assistance
purposes on TVA documents when          employee received a small payment        to recover the court-ordered
he first became employed in 2006,       for which he was ineligible              restitution. One of the individuals
ten years after they divorced. In       as a result. Since the amount            was believed to be hiding assets
addition, he added two other            was low, OWCP did not pursue             to prevent forfeiture by the USAO.
persons – a live-in companion and       reimbursement, but uncovering the        Due to our assistance, the USAO
her daughter – to his benefit plan      ineligible beneficiaries saved nine      has recovered a total of $619,856
in 2009, even though the couple         percent of any future salary-related     to-date from the individual and was
was not married and the daughter        payments the individual would            able to obtain a $900,000 judgment
was not related to him, making          have received.                           against a Missouri business the
them ineligible for coverage. The                                                individual had concealed through
employee stated he believed his         During our inquiry, we researched        an associate. The expected
ex-spouse was legitimately covered      the employee’s other benefit             sale of forfeited assets is expected
and his companion was covered,          plans (medical and dental) and           to bring an additional $500,000
under the umbrella of common-law        discovered he had failed to remove       to $1 million.
marriage.                               his ex-wife as a beneficiary when
                                        they divorced in 2004 and she
As a result of our investigation,       became ineligible to receive
the individual’s employment was         benefits. We found she improperly
terminated (prosecution declined),      received $2,672 in medical and
and Employee Benefits will review       dental payments as late as 2007.



                                                                    T VA O I G S e m i a n n u a l R e p o r t       49
                                  legislation &
                        regulations
             N avigating                          Risk   |   T VA O I G




50   T VA O I G S e m i a n n u a l R e p o r t
 L egislation & R egulations
 In fulfilling its responsibilities under the IG Act of 1978, as amended, the OIG follows and reviews
 existing and proposed legislation and regulations that relate to the mandate, operations and programs
 of TVA. Although TVA’s OGC reviews proposed or enacted legislation that could affect TVA activities,
 the OIG independently follows and reviews proposed legislation that affects the OIG and/or relates to
 economy and efficiency or waste, fraud, and abuse of TVA programs or operations.




The TVA OIG has been tracking          S 241 – NON-FEDERAL
the following major pieces of          EMPLOYEE
legislation during the past six        WHISTLEBLOWER
months:                                PROTECTION ACT OF 2011
HR 209 – REDUCING                      Senator Claire McCaskill, D-MO,
INFORMATION CONTROL                    introduced this bill, which repeals
DESIGNATIONS ACT                       and replaces provisions prohibiting
                                       reprisals against employees of
Representative Jackie Speier,
                                       government contractors for
D-CA, introduced this bill, which
                                       disclosing to a federal official
was referred to the Committee
                                       information relating to gross
on Oversight and Government
                                       mismanagement, waste, danger
Reform. The purpose of the
                                       to safety, abuse of authority, or
bill is to increase government-
                                       violation of law related to an          expenditures. The bill also requires
wide information sharing and
                                       agency contract, subcontract or         agency Inspectors General to:
availability of information to the
                                       grant. The bill also provides the       (1) report to the Director of OMB
public by reducing and minimizing
                                       complainant access to the IG’s          semiannually on violations of this
information control designations. It
                                       investigative file. The bill has        Act if the agency incurs more than
requires each agency to implement
                                       been referred to the Committee          $10 million in purchase card or
regulations promulgated by
                                       on Homeland Security and                convenience check spending, and
the Archivist. The bill further
                                       Government Affairs.                     (2) conduct periodic assessments
provides that the IG of each federal
                                       S 300 – GOVERNMENT                      of purchase card or convenience
agency, in consultation with the
                                       CHARGE CARD ABUSE                       check programs to identify and
Archivist, shall randomly audit
                                       PREVENTION ACT OF 2011                  analyze risks of illegal, improper, or
unclassified information with
                                                                               erroneous purchases and payments
information control designations
                                       This bill, introduced by Senator        in order to develop a plan for
for compliance with the applicable
                                       Chuck Grassley, R-IA, requires          periodic audits of card and check
rules and regulations.
                                       agencies to increase regulations        transactions.
                                       and enforcement to safeguard
                                       government purchase card



                                                                  T VA O I G S e m i a n n u a l R e p o r t       51
 S 413 – CYBERSECURITY                     Communications (NCCC) within         adequacy and effectiveness of the
 AND INTERNET FREEDOM                      the DHS, establishes within the      information security program and
 ACT OF 2011                               NCCC the United States Computer      evaluations, those assessments
                                           Emergency Readiness Team,            to be performed in accordance
 Senator Joseph Lieberman, I-CT,
                                           and establishes in the executive     with standards developed by the
 introduced this bill which has
                                           branch a Federal Information         Government Accountability Office,
 had hearings held before the
                                           Security Taskforce, which shall be   in collaboration with CIGIE, with
 Committee on Homeland Security
                                           the principal interagency forum      assistance from the Taskforce.
 and Government Affairs. Among
                                           for collaboration regarding best
 other things, the bill prohibits                                               HR 1136 – EXECUTIVE
                                           practices and recommendations        CYBERSPACE
 the government from turning
                                           for agency information security      COORDINATION ACT
 off the Internet, establishes an
                                           and the security of the federal      OF 2010
 Office of Cyberspace Policy to
                                           information infrastructure. The
 oversee and coordinate federal                                                 This bill, introduced by
                                           bill requires each agency with an
 policies on Internet security and                                              Representative James Langevin,
                                           Inspector General appointed under
 resiliency, establishes the National                                           D-RI, establishes a National Office
                                           the IG Act of 1978 to assess the
 Center for Cybersecurity and                                                   of Cyberspace, with oversight
                                                                                responsibilities for information
                                                                                security policies and practices,
                                                                                including requiring each agency
                                                                                to perform an annual independent
                                                                                audit of the information security
                                                                                program and practices of
                                                                                that agency to determine the
                                                                                effectiveness of such program
                                                                                and practices. For each agency
                                                                                with an IG appointed under the IG
                                                                                Act of 1978 or any other law, the
                                                                                annual audit required by this bill
                                                                                shall be performed by the IG or by
                                                                                an independent external auditor,
                                                                                as determined by the IG of the
                                                                                agency.

                                                                                S 717 – PUBLIC ONLINE
                                                                                INFORMATION ACT OF 2011
                                                                                HR 1349 – PUBLIC ONLINE
                                                                                INFORMATION ACT OF 2011
                                                                                These companion bills, introduced
                                                                                by Senator Jon Tester, D-MT,
                                                            Cyber Security
                                                                                and Representative Steve Israel,
                                                                                D-NY, establish a Public Online
                                                                                Information Advisory Committee



52       T VA O I G S e m i a n n u a l R e p o r t
to: (1) coordinate and encourage
the government’s efforts to make
information from all three branches
of government available on the
Internet, and (2) issue and update
nonbinding guidelines on how the
government should make public
information available. The bills also
provide the IG of each agency will
conduct periodic reviews regarding
agency compliance with Internet
publication requirements.

S 743 – WHISTLEBLOWER
PROTECTION
ENHANCEMENT ACT
OF 2011
                                          TVA Electric Car
Senator Daniel Akaka, D-HI ,
introduced this bill to expand
the types of disclosures that
are protected whistleblower             HR 1875 – BUILDING OUR                   program, the number of single
disclosures; and to amend the           CLEAN ENERGY FUTURE                      occupancy vehicles removed from
IG Act of 1978 to: (1) allow federal    NOW ACT                                  the roadway, energy savings and
agency employees who intend to                                                   emissions reductions, reduced
                                        Representative David Cicilline,
report a complaint or information                                                congestion and improved air
                                        D-RI, introduced this bill to provide
with respect to an urgent                                                        quality, and ways to increase
                                        grants for the use of clean fuel in
concern to Congress to report                                                    participation in the program. The
                                        public transportation vehicles,
such complaint or information                                                    review will also contain a summary
                                        establish a program to provide
to the Inspector General of their                                                of any audits or investigations of
                                        federal employees with a fringe
agency, and (2) provide for the                                                  the program conducted by the IG
                                        benefit for using public transit, and
appointment of a Whistleblower                                                   of the agency.
                                        require that public utilities develop
Protection Ombudsman in the OIG
                                        a plan to support plug-in hybrid         S 1030 – FREEDOM FROM
to educate agency personnel about
                                        and electric vehicles.                   RESTRICTIVE EXCESSION
whistleblower rights. This bill
                                                                                 EXECUTIVE DEMANDS AND
was returned to the Senate on
                                        The public transit fringe benefit for    ONEROUS MANDATES ACT
October 19 for consideration by the
                                        federal employees requires that          OF 2011
Senate as a whole.
                                        each agency conduct a review of
                                                                                 Introduced by Senator Olympia
                                        the program the first year after
                                                                                 Snowe, R-ME, this bill requires
                                        its implementation and every
                                                                                 federal agencies to periodically
                                        three years thereafter. The review
                                                                                 review agency rules which have
                                        will contain information on the
                                                                                 a significant adverse economic
                                        total number of employees of
                                                                                 impact on small entities (small
                                        the agency participating in the



                                                                    T VA O I G S e m i a n n u a l R e p o r t      53
 businesses, organizations, and            The agency will have six months          Examples of exceptions include
 governmental jurisdictions).              to correct any deficiencies in the       emergency situations, prior consent
 Compliance guidance provided to           review. If the agency IG determines      and by warrant. Penalties for
 these small entities is also reviewed.    the deficiencies still exist after       violations are included and persons
 Such reviews are to be conducted          the agency has had six months to         whose geolocation information is
 every nine years.                         correct the review, the IG will notify   improperly obtained or used may
                                           Congress.                                recover civil damages.
 Within six months of the date the
                                           S 1212 – GEOLOCATIONAL
 review is to be completed, the                                                     If a court or agency finds an agency
                                           PRIVACY AND
 agency IG will determine whether                                                   employee may have willfully
                                           SURVEILLANCE ACT
 the review was done appropriately.                                                 violated this act, the agency will
 The IG will notify the head of the        Under this bill introduced by            review the situation to determine
 agency as to whether the review           Senator Ron Wyden, D-OR,                 if disciplinary action against
 was proper and whether there              intercepting the geolocation             the employee is appropriate. If
 were any issues preventing the IG         information of another person will       the agency decides not to take
 from making such a determination.         be prohibited as a general rule.         disciplinary action, the agency



54       T VA O I G S e m i a n n u a l R e p o r t
                                       will then be reduced by 20 percent       when such an investigation is
                                       of the total 2010 cost for such          initiated and the Administrator may
                                       vehicles. The money saved will be        coordinate investigative efforts
                                       returned to the Treasury.                with the agency IG.

                                                                                S 1409 – IMPROPER
                                       Agency Inspectors General will
                                                                                PAYMENT ELIMINATION
                                       review the agency’s system for
                                                                                AND RECOVERY ACT
                                       monitoring the nonofficial use of
                                       government vehicles. Once the            Introduced by Senator Tom Carper,
                                       review is complete, the results will     D-DE, this bill seeks to strengthen
                                       be reported to Congress.                 last year’s Act of the same name
                                                                                and attempts to identify, reduce
                                       HR 2340 – TRANSPARENCY
                                                                                and recover payments made by
                                       IN GOVERNMENT ACT
                                                                                the federal government in error
                                       Representative Mike Quigley, D-IL,       or because of fraud. The bill tasks
                                       introduced this bill. The primary        the Director of OMB to identify
                                       purpose of the bill is to create         federal spending that is highly
                                       more transparency in Congress.           susceptible to improper payments.
                                       However, Section V amends the            Such a list will be created annually.
                                       Federal Funding and Accountability       The director will also coordinate
                                       Act (FFAA) of 2006, by requiring         with the heads of agencies to set
                                       Inspectors General to periodically       targets and take actions to reduce
Chattanooga Office Complex             audit the data provided to the OMB       improper payments.
                                       Web site, www.usaspending.gov,
                                       which provides information about         Under this bill, each agency will
                                       entities receiving federal funds.        report any high dollar improper
                                                                                payments to that agency’s IG on
                                       S 1338 – REGULATOR
head will notify the appropriate                                                a quarterly basis. Such reports
                                       CAPTURE ACT OF 2011
IG of the reasons underlying the                                                will also be made public minus
decision.                              This bill, introduced by Senator         any referrals to the Department
                                       Sheldon Whitehouse, D-RI,                of Justice. Upon receiving the
S 1246 – ACT TO REDUCE                 creates the Office of Regulatory         report, the IG will assess the
THE NUMBER OF NON-                     Integrity within the OMB to be           quality of the improper payment
ESSENTIAL NEW VEHICLES                 headed by an administrator.              estimate, determine the level
PURCHASED AND                          The administrator is tasked with         of risk associated with the
LEASED BY THE FEDERAL                  investigating the influence of           program, review the adequacy
GOVERNMENT                             concentrated economic interests          of internal controls, and make
Senator Tom Coburn, R-OK,              on agencies which results in actions     recommendations to improve
introduced this bill which requires    or regulations that do not advance       the program.
agencies to determine the number       the goals of the agency or cause
and cost of nontactical and civilian   the public to lose confidence in the
vehicles purchased or leased in        agency regulatory process. The
2010. Agency budgets for 2012          IG of an agency will be informed



                                                                   T VA O I G S e m i a n n u a l R e p o r t       55
                           appen d ices
            N avigating                           Risk   |   T VA O I G




56   T VA O I G S e m i a n n u a l R e p o r t
                                                                                                            Appendix 1


         INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT

REPORTING           REQUIREMENT                                                                             PAGE
Section 4(a)(2)     Review of Legislation and Regulations                                                     51-55

Section 5(a)(1)     Significant Problems, Abuses, and Deficiencies                                            27-49

                    Recommendations With Respect to Significant Problems, Abuses,
Section 5(a)(2)                                                                                               27-49
                    and Deficiencies

                    Recommendations Described in Previous Semiannual Reports in
Section 5(a)(3)                                                                                             Appendix 4
                    Which Corrective Action Has Not Been Completed

                    Matters Referred to Prosecutive Authorities and the Prosecutions
Section 5(a)(4)                                                                                             Appendix 5
                    and Convictions That Have Resulted
Section 5(a)(5)
                    Summary of Instances Where Information Was Refused                                        None
and 6(b)(2)

Section 5(a)(6)     Listing of Audit and Inspection Reports                                                 Appendix 2


Section 5(a)(7)     Summary of Particularly Significant Reports                                               27-49

                    Status of Management Decisions for Audit and Inspection Reports
Section 5(a)(8)                                                                                             Appendix 3
                    Containing Questioned Costs

                    Status of Management Decisions for Audit and Inspection Reports
Section 5(a)(9)                                                                                             Appendix 3
                    Containing Recommendations That Funds Be Put to Better Use

                    Summary of Audit and Inspection Reports Issued Prior to the
Section 5(a)(10)    Beginning of the Reporting Period for Which No Management                                 None
                    Decision Has Been Made

Section 5(a)(11)    Significant Revised Management Decisions                                                  None

                    Significant Management Decisions With Which the Inspector General
Section 5(a)(12)                                                                                              None
                    Disagreed


Section 5(a)(13)    Information under Federal Financial Management Improvement Act of 1996                    None

                    Appendix of results of any peer review conducted by another Office of Inspector
Section 5(a)(14)    General during the reporting period and, if none, a statement of the date of the last   Appendix 8
                    peer review.

                    List of outstanding recommendations from any peer review conducted by another
Section 5(a)(15)    Office of Inspector General, including a statement describing the status of the           None
                    implementation and why implementation is not complete.

                    List of peer reviews conducted of another Office of the Inspector General during the
Section 5(a)(16)    reporting period, including a list of any outstanding recommendations made from           None
                    any previous peer review that remain outstanding or have not been implemented.




                                                                    T VA O I G S e m i a n n u a l R e p o r t           57
Appendix 2

OIG AUDIT REPORTS • Issued During the Six-Month Period Ended Sept. 30, 2011
 Report Number                                                                                 Questioned   Unsupported   Funds Put To
                   Title
 and Date                                                                                           Costs         Costs     Better Use

 CONTRACT AUDITS
 2011-13741
                   Proposal for Perimeter Stabilization Project                                       $0            $0     $1,162,132
 05/24/2011
 2010-13466
                   Review of Supply Chain’s Controls Over Contract Documents                           0            $0             $0
 05/31/2011
 2010-13104
                   Pressures On, Inc.                                                           $686,466      $300,290             $0
 06/02/2011
 2011-13918
                   Proposal for Hydro Modernization Alliance                                          $0            $0     $3,569,000
 09/14/2011
 2010-13678
                   Williams Specialty Services - Subcontractor to Bechtel Power Corporation     $640,420      $640,420             $0
 09/15/2011
 2011-14104
                   Proposal to Provide Quality Control Services                                       $0            $0       $213,900
 09/30/2011
 DISTRIBUTOR AUDITS
 2010-13284
                   Distributor Audit of Florence Utilities                                            $0            $0             $0
 04/06/2011
 2010-13286
                   Distributor Audit of Warren Rural Electric Cooperative Corporation                 $0            $0             $0
 07/06/2011
 2010-13661
                   Distributor Audit of Sevier County Electric System                                 $0            $0             $0
 07/07/2011
 2009-12595
                   Distributor Audit of City of Oak Ridge                                             $0            $0             $0
 07/14/2011
 2010-13660
                   Distributor Audit of BVU Authority                                                 $0            $0             $0
 09/28/2011
 FINANCIAL AND OPERATIONAL AUDITS
 2009-12763
                   Review of Fossil Fuel Inventory                                                    $0            $0             $0
 05/04/2011
 2010-13013
                   Audit of TVA Tritium Program Under DOE/TVA Interagency Agreement                   $0            $0             $0
 05/16/2011
 2011-13891        Performance of Agreed Upon Procedures for CRS Green
                                                                                                      $0            $0             $0
 06/01/2011        E-Energy Program Reporting Year 2010
 2010-13280        Review of the Effectiveness of TVA’s Transmission Line
                                                                                                      $0            $0             $0
 07/11/2011        Maintenance Program
 INFORMATION TECHNOLOGY AUDITS
 2010-13366
                   Audit of Information Technology Organizational Effectiveness                       $0            $0             $0
 04/05/2011
 2010-13570
                   Review of the Core Switch Replacement Project                                      $0            $0             $0
 06/01/2011
 2010-13132
                   Review of Physical and Logical Access for Contractors                              $0            $0             $0
 06/15/2011
 2011-13828
                   Audit of Information Technology General Controls - Program Development             $0            $0             $0
 06/30/2011
 2011-13818        Audit of Information Technology General Controls - Access to Programs and
                                                                                                      $0            $0             $0
 07/14/2011        Data
 2011-13820        Audit of Information Technology General Controls - Configuration
                                                                                                      $0            $0             $0
 07/14/2011        Management
 2011-13826
                   Audit of Information Technology General Controls - Computer Operations             $0            $0             $0
 07/18/2011




58        T VA O I G S e m i a n n u a l R e p o r t
                                                                                                                         Appendix 2

  OIG AUDIT REPORTS • Issued During the Six-Month Period Ended Sept. 30, 2011 (Continued)

Report Number                                                                                     Questioned   Unsupported   Funds Put To
                 Title
and Date                                                                                               Costs         Costs     Better Use
2011-13944
                 Audit of General Controls for Proposed System Replacement                               $0            $0             $0
07/20/2011
2011-13819
                 Audit of Information Technology General Controls - Program Changes                      $0            $0             $0
07/21/2011
2010-13128
                 Pre-Implementation Review of the PowerPlant System                                      $0            $0             $0
07/28/2011
2011-13995
                 Review of Internet Facing Firewalls                                                     $0            $0             $0
09/07/2011

Total
                                                                                                $1,326,886      $940,710     $4,945,032
Audits (26)




OIG INSPECTION REPORTS • Issued During the Six-Month Period Ended Sept. 30, 2011

Report Number                                                                             Questioned     Unsupported         Funds Put To
                         Title
and Date                                                                                       Costs           Costs           Better Use
2009-12991               Review of TVA’s Groundwater Monitoring at Coal                          $0               $0                  $0
06/21/2011               Combustion Products Disposal Areas
2009-12910-03            Peer Review of the Stability Analysis of Ash Disposal                   $0               $0                  $0
06/27/2011               Areas 2 and 3 at the Johnsonville Fossil Plant
2009-12910-04            Peer Review of the Stability Analysis of the Gypsum                     $0               $0                  $0
06/27/2011               Stack at the Widows Creek Fossil Plant
2009-12910-05            Peer Review of Johnsonville Fossil Plant Dike Stability                 $0               $0                  $0
06/27/2011               Improvements
2008-12283-07            Review of the Environmental Sampling and Monitoring                     $0               $0                  $0
06/30/2011               Plans for the Kingston Ash Spill
2010-13407                                                                                       $0               $0                  $0
                         Section 26a Process Review
09/07/2011
2009-12943               TVA’s Plan for Removal of Polychlorinated Biphenyl                      $0               $0                  $0
09/29/2011               Equipment
2010-13530                                                                                       $0               $0                  $0
                         Review of TVA’s Fossil Fire Protection Systems
09/30/2011
TOTAL                                                                                            $0               $0                  $0
INSPECTIONS (8)

Note: A summary of or link to the full report may be found on the OIG’s Web site at www.oig.tva.gov.




                                                                                      T VA O I G S e m i a n n u a l R e p o r t            59
Appendix 3


TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • AUDITS

                                                                                            Number                 Questioned            Unsupported
 Audit Reports                                                                            of Reports                    Costs                  Costs

 A. For which no management decision has been made by
                                                                                                      0                       $0                  $0
    the commencement of the period


 B. Which were issued during the reporting period                                                     2              $1,326,886              $940,710

 Subtotal (A+B)                                                                                       2              $1,326,886              $940,710

 C. For which a management decision was made during the
                                                                                                      1                $686,466              $300,290
                                                                                                       1


    reporting period

     1. Dollar value of disallowed costs                                                              1                $655,177              $274,277

     2. Dollar value of costs not disallowed                                                          1                 $31,289               $26,013

 D. For which no management decision has been made by the
                                                                                                      1                $640,420              $640,420
    end of the reporting period

 E. For which no management decision was made within six
                                                                                                      0                       $0                  $0
    months of issuance

     1
         The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and
         C(2) when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • INSPECTIONS

                                                                                            Number                 Questioned            Unsupported
 Inspection Reports                                                                       of Reports                    Costs                  Costs

 A. For which no management decision has been made by the
                                                                                                      0                       $0                  $0
    commencement of the period


 B. Which were issued during the reporting period                                                     0                       $0                  $0

 Subtotal (A+B)                                                                                       0                       $0                  $0

 C. For which a management decision was made during the
                                                                                                      0                       $0                  $0
    reporting period

     1. Dollar value of disallowed costs                                                              0                       $0                  $0

     2. Dollar value of costs not disallowed                                                          0                       $0                  $0

 D. For which no management decision has been made by the
                                                                                                      0                       $0                  $0
    end of the reporting period

 E. For which no management decision was made within six
                                                                                                      0                       $0                  $0
    months of issuance




60              T VA O I G S e m i a n n u a l R e p o r t
                                                                                                                       Appendix 3


                                                               TABLE II • FUNDS TO BE PUT TO BETTER USE • AUDITS

                                                                                                               Number           Funds To
Audit Reports                                                                                                of Reports        Be Put To
                                                                                                                               Better Use

A. For which no management decision has been made by the commencement of the period                                   2        $18,843,000

B. Which were issued during the reporting period                                                                      3         $4,945,032

Subtotal (A+B)                                                                                                        5        $23,788,032

C. For which a management decision was made during the reporting period                                               3        $20,005,132

  1. Dollar value of recommendations agreed to by management                                                          3        $20,005,132

  2. Dollar value of recommendations not agreed to by management                                                      0                $0

D. For which no management decision has been made by the end of the reporting period                                  2         $3,782,900

E. For which no management decision was made within six months of issuance                                            0                $0




                                                    TABLE II • FUNDS TO BE PUT TO BETTER USE • INSPECTIONS

                                                                                                               Number           Funds To
Inspection Reports                                                                                           of Reports        Be Put To
                                                                                                                               Better Use
A. For which no management decision has been made by the commencement of the period                                   0                $0

B. Which were issued during the reporting period                                                                      0                $0

Subtotal (A+B)                                                                                                        0                $0

C. For which a management decision was made during the reporting period                                               0                $0

  1. Dollar value of recommendations agreed to by management                                                          0                $0

  2. Dollar value of recommendations not agreed to by management                                                      0                $0

D. For which no management decision has been made by the end of the reporting period                                  0                $0

E. For which no management decision was made within six months of issuance                                            0                $0




                                                                                       T VA O I G S e m i a n n u a l R e p o r t       61
Appendix 4


AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING
 As of the end of the semiannual period, final corrective actions associated with seven audits and four inspections were not completed within
 twelve months of the final report date. Presented below for each audit and inspection are the report number and date and a brief description
 of the open recommendations and date management expects to complete final action.

 Audit Report
                       Report Title and Recommendation(s) for which Final Action is Not Complete
 Number and Date


                       Review of TVA Actions to Protect Social Security Numbers and Eliminate Their Unnecessary Use
 2007-11216
 06/02/2008            TVA agreed to implement protective measures for applications and reports containing social security numbers, such as
                       restricting access and logging downloads. Management expects final action to be completed by October 31, 2011.



                       Sequoyah Nuclear Plant – Cyber Security Assessment
 2007-11388
 08/21/2008            TVA agreed to conduct risk assessments on the use of identified third-party applications and evaluate the elimination of
                       clear text protocols where technically feasible. Management expects final action to be completed by August 30, 2012.



                       Hydroelectric Plant Automation – General, Physical, and Security Controls Review
 2008-12127
 09/24/2009            TVA agreed to implement the new access control system at all sites and further restrict access to key components.
                       Management expects final action to be completed by June 1, 2013.


                       Federal Information Security Management Act Evaluation
 2009-12697
 01/25/2010            TVA agreed to improve reporting, monitoring, and remediate security weaknesses, as well as improve efforts to meet
                       remediation due dates. Management expects final action to be completed by December 31, 2011.


                       Use and Protection of Personally Identifiable Information (PII)
 2009-12650            TVA agreed to improve the privacy program by (1) logging changes of PII data, (2) deploying encryption and controls
 05/19/2010            over PII data, (3) reducing the use of social security numbers, (4) improving tracking of PII systems, (5) defining
                       security officer responsibilities, (6) defining and monitoring proper use of temporary and open shares, and (7) updating
                       the privacy assessment process. Management expects final action to be completed by September 30, 2012.




                       Distributor Audit of Scottsboro Electric Power Board (Scottsboro)
 2009-12510            TVA agreed to work with Scottsboro and address all recommendations, including recovery of a customer’s demand
 08/10/2010            charges. Additionally, Scottsboro agreed to (1) create an internal loan document, (2) allocate operational and
                       maintenance costs and (3) allocate large expenses between the electric and cable systems. Final action is expected to be
                       completed by December 31, 2011.




                       Audit of Process Improvements to Manage the Physical Environment
 2010-13162-01
 09/08/2010            TVA management agreed to evaluate options for replacement of the HALON fire suppression system and develop an
                       implementation plan. Management expects final action to be completed by July 31, 2012.




62       T VA O I G S e m i a n n u a l R e p o r t
                                                                                                                       Appendix 4


        AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)

Inspection Report
                    Report Title and Recommendation(s) for which Final Action is Not Complete
Number and Date


                    Review of Physical and Environmental Controls for the Chattanooga Data Center

2005-518I           TVA agreed to replace the Chattanooga office complex telephone system with a system operating on the Internet
                    Protocol to eliminate three specific failure modes which could hamper or eliminate TVA’s communication ability.
08/31/2005          Implementation of the new communication system has been delayed by management due to what is considered higher
                    priority projects. Management is targeting final action to be completed by December 31, 2012.


                    Distributor Review of Monroe County Electric Power Authority
2008-12007
05/13/2009          TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, (2) recommend to
                    the Board that additional financial metrics, including when cash reserves become excessive, be implemented in the rate
                    setting process. Management expects final action to be completed by November 30, 2011.


                    Distributor Review of Lewisburg Electric System
2008-12040
05/13/2009          TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and (2) recommend to
                    the Board that additional financial metrics, including when cash reserves become excessive, be implemented in the rate
                    setting process. Management expects final action to be completed by November 30, 2011.


                    Review of TVA Records Retention
2008-11829
06/02/2010          TVA agreed to continue current plans to replace EDMS and implement further cleanup initiatives when feasible.
                    Management expects final action to be completed by December 31, 2013.




                                                                                T VA O I G S e m i a n n u a l R e p o r t                   63
Appendix 5

 INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS1

     Referrals
     	         Subjects Referred to U.S. Attorneys                                                   22

     	         Subjects Referred to State/Local Authorities                                           3

     Results
     	         Subject Indicted                                                                       6

     	         Subjects Convicted                                                                     5

     	         Pretrial Diversion                                                                     1

     	         Referrals Declined                                                                    14


  		
   1
         These numbers include task force activities and joint investigations with other agencies.




64         T VA O I G S e m i a n n u a l R e p o r t
                                                                                                                                             Appendix 6

                                                                                                              HIGHLIGHTS – STATISTICS
                                                                          SEPT 30,          MAR 31,             SEPT 30,       MAR 31,         SEPT 30,
                                                                             2011             2011                 2010          2010             2009
    AUDITS
    AUDIT STATISTICS
    Carried Forward                                                             46                   40              60            44               70
    Started                                                                     16                   29              28            46               46
    Canceled                                                                   (2)               (3)                 (7)           (4)              (6)
    Completed                                                                 (26)              (20)                (41)          (26)             (66)
    In Progress at End of Reporting Period                                      34                   46              40            60               44


    AUDIT RESULTS (Thousands)
    Questioned Costs                                                        $1,327            $4,846             $2,713          $980           $6,744
    Disallowed by TVA                                                         $655             1,303              1,879          2,255           2,799
                                                                                                                           1             2
    Recovered by TVA                                                          $326              763               1,921          2,655             909


    Funds To Be Put To Better Use                                           $4,945           $24,963            $13,696         $9,703         $50,570
    Agreed to by TVA                                                       $20,005             7,450                149          8,853           4,723
                                                                                                          3
    Realized by TVA                                                         $1,162            12,750              2,091           480            4,395


    OTHER AUDIT-RELATED PROJECTS
    Completed                                                                   19                   13              27            10               16
    Cost Savings Identified/Realized (Thousands)                                $0                   $0              $0            $0               $0


    INSPECTIONS
    Completed                                                                    8                    3               9             2               21
    Cost Savings Identified/Realized (Thousands)                                $0                   $0              $0            $0               $0


    INVESTIGATIONS4
    INVESTIGATION CASELOAD
    Opened                                                                     190              190                 199           168              194
    Closed                                                                     228              161                 221           198              223
    In Progress at End of Reporting Period                                     163              199                 167           189              251


    INVESTIGATIVE RESULTS (Thousands)
    Recoveries                                                                  $8            $2,144              $36.2          $41.8           $20.6
    Savings                                                                      0             2,515              4,028             0            472.1
    Fines/Penalties                                                              1              453                   85           5.9               .4
    Other Monetary Loss                                                     $9,693 6


    MANAGEMENT ACTIONS
    Disciplinary Actions Taken (# of Subjects)                                  23                    7              14             7                6
    Counseling/Management Techniques Employed (# of Cases)                      18                   24              31            25               10
                                                                                                      7
    Debarment                                                                    0                    1


    PROSECUTIVE ACTIVITIES (# of Subjects)
    Referred to U.S. Attorneys                                                  22                   22              51            16               45
    Referred to State/Local Authorities                          	               3                    1               2             2                6
    Indicted                                                                     6                    1               7             4                3
    Convicted                                                                    5                    1               8             3                3
    Pretrial Diversion                                                           1                    0               1             2                0


	1
        	Adjusted to correct amount reported in prior semiannual reports.
	      2
        	Ibid.
	      3
        	Includes $304,036 savings realized in excess of amounts identified in the audits.
	      4
        	These numbers include task force activities and joint investigations with other agencies.
	      5
        	Adjusted to correct amount reported in prior semiannual reports.
	      6
        	Category added in semiannual period ended September 30, 2011.
	      7
        	Category added in semiannual period ended March 31, 2011.



                                                                                              T VA O I G S e m i a n n u a l R e p o r t                  65
                                                                                            Downtown Knoxville, TN




Appendix 7

 Government Contractor Audit Findings
 The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General
 appointed under the Inspector General Act of 1978 to submit an appendix on final, completed contract audit
 reports issued to the contracting activity that contain significant audit findings—unsupported, questioned, or
 disallowed costs in an amount in excess of $10 million, or other significant findings—as part of the Semiannual
 Report to Congress. During this reporting period, OIG issued no contract review reports under this requirement.




66      T VA O I G S e m i a n n u a l R e p o r t
                                                                                                   Appendix 8

Peer Reviews of the TVA OIG
Audits Peer Review                                          Investigations Peer Review
IG audit organizations are required to undergo an           Investigative operations undergo an external peer
external peer review of their system of quality control     review, Quality Assessment Review (QAR), at least
at least once every three years, based on requirements      once every three years. During the prior semiannual
in the Government Auditing Standards (Yellow Book).         period, the Office of Personnel Management (OPM)
Federal audit organizations can receive a rating of pass,   OIG conducted a QAR of the TVA OIG Investigative
pass with deficiencies, or fail. TVA OIG was the subject    Operations. The OPM OIG found the “…system of
of a peer review of its audit organization in the prior     internal safeguards and management procedures for
semiannual period. The review was performed by an           the investigative function of the TVA OIG in effect for
ad hoc team appointed by CIGIE and led by the               the year ending August 1, 2010, is in compliance with
U.S. Department of Education (Education) OIG.               the Quality Standards for Investigations and the Attorney
Education OIG issued the report, dated March 21,            General guidelines. These safeguards and procedures
2011, in which it concluded that the TVA OIG audit          provide reasonable assurance of conforming with
organization’s system of quality control for the year       professional standards in the conduct of investigations.”
ended September 30, 2010, was suitably designed             The QAR report can be found on our Web site at
and complied with to provide the OIG with reasonable        http://oig.tva.gov/peer-review.html.
assurance of performing and reporting in conformity
with applicable professional standards in all material
respects. Accordingly, TVA OIG received a rating of pass.
The peer review report is posted on our Web site at
http://oig.tva.gov/peer-review.html.




                                         Ft. Loudoun Dam




                                                                   T VA O I G S e m i a n n u a l R e p o r t     67
       G lossar y , abbreviations &
                              A cron y ms
             N avigating                          Risk   |   T VA O I G




68   T VA O I G S e m i a n n u a l R e p o r t
                                                                                                      Glossary


Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
agreed should not be charged to the agency.


Final Action - The completion of all management actions, as described in a management decision, with
respect to audit findings and recommendations. When management concludes no action is necessary, final
action occurs when a management decision is made.


Funds Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used
more efficiently by reducing outlays, deobligating program or operational funds, avoiding unnecessary
expenditures, or taking other efficiency measures.


Management Decision - The evaluation by management of the audit findings and recommendations
and the issuance of a final decision by management concerning its response to such findings and
recommendations.


Questioned Cost - A cost the IG questions because (1) of an alleged violation of a law, regulation, contract,
cooperative agreement, or other document governing the expenditure of funds; (2) such cost is not supported
by adequate documentation; or (3) the expenditure of funds for the intended purposes was unnecessary or
unreasonable.


Unsupported Costs - A cost that is questioned because of the lack of adequate documentation at the time
of the audit.




                                                                T VA O I G S e m i a n n u a l R e p o r t      69
Abbreviations and Acronyms

     The following are acronyms and abbreviations widely used in this report.

     CCP................................................................................................................................... Coal Combustion Product
     CEO..................................................................................................................................... Chief Executive Officer
     CIGIE............................................................................. Council of Inspectors General on Integrity and Efficiency
     COF.............................................................................................................................................Colbert Fossil Plant
     COSO.........................................................................................................Committee of Sponsoring Organizations
     CRS............................................................................................................................ Center for Resource Solutions
     Dam Safety.........................................................................................................................Dam Safety Organization
     DHS............................................................................................................ U.S. Department of Homeland Security
     DOE........................................................................................................................................Department of Energy
     Education................................................................................................................... U.S. Department of Education
     EIS&P....................................................................................................Enterprise Information Security and Policy
     ERM.............................................................................................................................Enterprise Risk Management
     FBI...........................................................................................................................Federal Bureau of Investigation
     FFAA.......................................................................................................... Federal Funding and Accountability Act
     FGD&C....................................................................................... Fossil Generation Development and Construction
     FY	.............................................................................................................................................................Fiscal Year
     IG	.................................................................................................................................................. Inspector General
     IT	 ........................................................................................................................................Information Technology
     JCC...............................................................................................................................John Sevier Combined Cycle
     Kingston Report................................................. Review of Kingston Fossil Plant Ash Spill Root Cause Study and
                                                                                                Observations About Ash Management
     Marshall Miller................................................................................................... Marshall Miller & Associates, Inc.
     NCCC................................................................................National Center for Cybersecurity and Communications
     NPG........................................................................................................................................ Nuclear Power Group
     NRO........................................................................................................................ National Reconnaissance Office
     OGC............................................................................................................................Office of the General Counsel
     OIG...........................................................................................................................Office of the Inspector General
     OMB................................................................................................................... Office of Management and Budget
     OPM.......................................................................................................................Office of Personnel Management
     ORNL.......................................................................................................................Oak Ridge National Laboratory
     OWCP ...................................................................................................Office of Workers’ Compensation Program
     PCB....................................................................................................................................Polychlorinated Biphenyl
     QAR...............................................................................................................................Quality Assessment Review
     ROW................................................................................................................................................... Rights-of-way
     SAR..............................................................................................................................................Semiannual Report
     Stantec....................................................................................................................Stantec Consulting Services, Inc.
     TVA.................................................................................................................................Tennessee Valley Authority
     USAO......................................................................................................................................U.S. Attorney’s Office
     USWAG..............................................................................................................Utility Solid Waste Activity Group
     WBN....................................................................................................................................Watts Bar Nuclear Plant




70     T VA O I G S e m i a n n u a l R e p o r t
Office of the Inspector General
400 West Summit Hill Drive
Knoxville, Tennessee 37902

The OIG is an independent organization charged with             Report concerns to the OIG Empowerline
conducting audits, inspections, and investigations
relating to TVA programs and operations, while
keeping the TVA Board and Congress fully and currently
informed about problems and deficiencies relating to
the administration of such programs and operations.

The OIG focuses on (1) making TVA’s programs and
                                                                  EMPOWERLINE
operations more effective and efficient; (2) preventing,               A confidential connection for reporting fraud,
identifying, and eliminating waste, fraud, and abuse as
                                                                               waste or abuse affecting TVA.
well as violations of laws, rules, or regulations; and
(3) promoting integrity in financial reporting.
                                                                       How to Report a Concern
If you would like to report to the OIG any concerns
about fraud, waste, or abuse involving TVA programs or
                                                                        Call toll-free: 855-882-8585
violations of TVA’s Code of Conduct, you should contact
the OIG EmPowerline system. The EmPowerline is                                    or report on the web:
administered by a third-party contractor and can be                     www.OIGempowerline.com
reached 24 hours a day, seven days a week, either by
a toll-free phone call (1-855-882-8585) or over the
Web (www.oigempowerline.com). You may report
your concerns anonymously or you may request
confidentiality.




Leadership  OIG

         P H ILO S O P H Y

The TVA OIG strives to be a high performing organization made up of dedicated
individuals who are empowered, motivated, competent, and committed to producing high
quality work that improves TVA and life in the Valley.

Each of us has important leadership, management, team, and technical roles. We value
integrity, people, open communication, expansion of knowledge and skills, creative
problem solving and collaborative decision making.




                                                           T VA O I G S e m i a n n u a l R e p o r t                   71
Nav i gat i n g
                                       Risk




   T E N N E S S E E VA L L E Y A U T H O R I T Y

   OFFI CE o f t h e IN SP ECTOR G ENER A L
   4 0 0 We s t S u m mi t Hi l l D r i v e • K n ox v i l l e , Te n n e s s e e 3 7 9 0 2
